OFFICE OF INSPECTOR GENERAL   U.S. Department of Transportation




           Semiannual
           Report to the
            Congress
         October 1, 2000 - March 31, 2001
                                                                                                                               Contents                           �

FROM THE INSPECTOR GENERAL                               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


ACRONYMS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


O R G A N I Z AT I ON / M AN AG E ME NT                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Focus:           Top Ten Management Challenges Outlined in OIG Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                 Protecting Taxpayer Investments in and Ensuring Timely Delivery of Infrastructure Projects . . . . 10


                 Airline Customer Service and Flight Delays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14



WO RK PLANN ED AND IN PROGRESS                                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


AU D IT S A ND I NV E S TI G AT I O N S :                 OCTOBER 1 , 2000 – MA RCH 31, 2001                                       . . . . . . . . . . . . . 25


C H A RT S AN D TA B L E S :            O C T O B E R 1 , 2 0 0 0 – M A R C H 3 1 , 2 0 0 1



                 Completed Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48


                 Management Decisions Regarding Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48


                 Audit Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49


                 Audit Reports with Recommendations That Funds be Put to Better Use . . . . . . . . . . . . . . . . . . . . 49


                 Audit Reports Recommending Changes for Safety, Economy or Efficiency . . . . . . . . . . . . . . . . . . 50


                 Status of Unresolved Audit Recommendations over 6 Months Old . . . . . . . . . . . . . . . . . . . . . . . . 50


                 Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51


                 Congressional Testimonies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54


                 Application of Audit Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55


                 Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56


                 Application of Investigative Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . 56


                 Investigative Resource Application by Priority Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56


                 Administrative Actions Taken . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57


                 Judicial Actions Taken . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57



D O T /O IG AWA R D S          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58

C O N TA C T S     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68

       From           the        Inspector                  G e n e r a l





We are pleased to present the Semiannual Report to Congress for the first half of Fiscal Year (FY) 2001 from
the Department of Transportation's (DOT) Office of Inspector General (OIG). We issued 47 audit reports, tes­
tified before Congress 7 times and made financial recommendations totaling more than $372 million. Our
investigators conducted criminal investigations that resulted in 90 indictments, 65 convictions and more than
$84 million in fines, recoveries and restitutions between October 1, 2000 and March 31, 2001.


Our audit and investigative work included several crosscutting reports on the Department as a whole. In
January, we released our fourth annual report on the top management challenges facing the Department. It has
proven useful in briefing the Secretary, the Deputy Secretar y, and other incoming senior officials as part of the
new Administration, as well as Members of Congress and their staff. Details of the management report can be
found on page 7.


We also released our "Final Report on Airline Customer Service," which was a catalyst for initiatives undertaken
by airlines, airports, the
Administration, and Congress
                                    S u m m a r y o f P e r f o r m a n c e

to address the flight delays and
cancellations that are a root       OCTOBER 1, 200 0 – MARCH 31, 2001
cause of public dissatisfaction     Reports Issued                                                      47
with air travel. As we go to        Recommendations Issued                                              98
press, it appears that the joint
                                    Congressional Testimonies                                            7
government-private sector
                                    Total Financial Recommendations                 $372,051,000
e ff o rt to solve this multi-
                                    — That Funds Be Better-Used                     $307,700,000
faceted problem is having pos­
                                    — Questioned Costs                                $64,351,000
itive results. Additional details
                                    Referrals for prosecution                                         119
of our work on airline cus­
tomer service and the related       Cases accepted for prosecution                                      94

issue of flight delays and can­     Indictments                                                         90

cellations can be found on          Fines, restitutions, and recoveries               $84,243,185
page 14.                            Convictions                                                         65
                                     Contract terminations/debarments                                   17
                                     Actions affecting DOT employees                                      2
Transportation Secretary Norman Y. Mineta has made stewardship of Federal funds a top priority. The
Secretary told the Senate Committee on Environment and Public Works at a May 10 hearing: "I feel
strongly that with the increased Federal investment in transportation infrastructure in the past few years,
we also need to be especially aware of the potential for waste, fraud and abuse and develop mechanisms
to identify it early and prevent it. If we pay for a 10-sack concrete job, we should get a 10-sack concrete
job, not a 7-sack job."


Fraud prevention and detection has, likewise, been the focus of OIG in recent years, especially in the
area of infrastructure projects. In January, one investigation resulted in individual criminal prosecutions
and a $30 million civil settlement - one of the largest monetary recoveries in DOT history - when two
companies agreed to settle allegations that they used non-approved coated metal pipe in more than 200
Louisiana highway construction projects between 1992 and 1997. More information on OIG’s fraud
initiative can be found on page 10.


By law, OIG is required to examine the financial management of the Department and its Operating
Administrations, which are funded at nearly $60 billion per year. We take this responsibility very seri­
ously, as we do our other audit and investigative efforts, to ensure that the taxpayers money is spent
effectively and efficiently. In our annual audit of the Department's financial statements, our concerns
over the net book value of the Federal Aviation Administration’s (FAA) properties ($11.5 billion of the
$16.2 billion total for DOT) resulted in a "qualified" opinion for the FY 2000 Consolidated Financial
Statements. In response, FAA has engaged independent accountants to review and refine real and per­
sonal property files and computations.


We very much appreciate the support given us by Secretary Mineta, Deputy Secretary Jackson and the
Congress for our work. We look forward to serving the American public by continuing our oversight
of the Department's efforts to provide safe, efficient, and cost effective movement of people and goods.
List of Acronyms Found in This Report





 AASHTO   American Association of State Highway and Transportation Officials
 AIR 21   Wendell H. Ford Aviation Investment and Reform Act for the 21st Century
 ATC      Air Traffic Control
 BTS      Bureau of Transportation Statistics
 CDL      Commercial Drivers License
 CGIS     Coast Guard Investigative Service
 DBE      Disadvantaged Business Enterprise
 DCIS     Defense Criminal Investigative Service
 DOE      Department of Energy
 DOT      Department of Transportation
 FAA      Federal Aviation Administration
 FMCSA    Federal Motor Carrier Safety Administration
 FHWA     Federal Highway Administration
 FTA      Federal Transit Administration
 GAO      General Accounting Office
 GPRA     Government Performance & Results Act
 IG       Inspector General
 INS      Immigration and Naturalization Service
 MARAD    Maritime Administration
 NAFTA    North American Free Trade Agreement
 NASA     National Aeronautics and Space Administration
 NCIS     Naval Criminal Investigative Service
 NTSB     National Transportation Safety Board
 NHTSA    National Highway Traffic Safety Administration
 OA       Operating Administration
 OIG      Office of the Inspector General
 OST      Office of the Secretary of Transportation
 PSNY     Pennsylvania Station-New York
 RSPA     Research and Special Programs Administration
 SLSDC    St. Lawrence Seaway Development Corporation
 STARS    Standard Terminal Automation Replacement System
 STB      Surface Transportation Board
 TASC     Transportation Administrative Service Center
 TEA 21   Transportation Equity Act for the 21st Century
 USCG     United States Coast Guar d
 VDOT     Virginia Department of Transportation
                                                                     O r g a n i z a t i o n / M a n a g e m e n t





 T HE O FFI C E O F IN SP ECTO R G EN E R A L F O R TH E D E PA RT MEN T O F T R A N S P O RTAT I O N
 was created by Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act
 sets several goals for OIG:
 ■	 To  conduct or supervise objective audits and
                                                                            OIG Fiscal Year 2001 Budget
    investigations of DOT’s programs and operations;
                                                                            Total: $52,857,457
 ■	 To promote economy, effectiveness and efficiency                            $3,056,000        $2,700,000   $1,756,000 TASC*
                                                                             General Services       Travel
    within DOT;                                                             Administration Rent

 ■	 To  prevent and detect fraud, waste, and abuse in                               $3,077,457
                                                                                      Other
    the Department’s programs;
 ■	 To  review existing and proposed laws or regulations
    affecting the Department and make recommenda­                                $9,272,000                                               $32,996,000
                                                                                  Benefits
    tions about them, and                                                                                                                 Personnel
                                                                                                                                          Compensation

 ■	 To keep the Secretary of Transportation and
                                                                            * The Transportation Administrative Service Center provides reimbursable
    Congress fully informed about problems in                                 services to DOToperating administrations.

    Departmental programs and operations.


   OIG is divided into two major units and five support units. The major units are the Office of Assistant
  Inspector General for Auditing and the Office of Assistant Inspector General for Investigations; each has head-
                                                                                                           quarters staff and field staff.
                             Inspector General                                                             The support units are the
                                                                                                           Office of Legal Counsel, the
                            Deputy Inspector General                                                       Office of Legislative and
                                                                                                           External Affairs, the Office
                                                                              Senior Counsel               of Information Resource
                                                                       Senior Counsel for Legislative
     Assistant IG For             Assistant IG For                          & External Affairs
                                                                      Information/ Human Resources         Management, the Office of
       Investigations                   Auditing                   Financial/ Administrative Services
                                                                Quality Assurance Review/ Internal Affairs Human Resources, the
                                                                                                           Office of Financial and
                                                    Deputy        Deputy AIG For
                                                                                            Deputy
                                                                                                           Administrative Services and
                                  Deputy           AIG For           Financial,
   Deputy          Deputy                      Competition,                                 AIG For        the Office of Quality
                                  AIG For                          Information
   AIG For         AIG For                                                                 National
                                Maritime &       Economic,       Technology and
Investigations     Aviation
                              Highway Safety  Rail, and Special  Departmentwide
                                                                                        Transportation     Assurance Review/Internal
                                                  Programs                              Infrastructure
                                                                     Programs
                                                                                                           Affairs. ■
This page left intentionally blank.
                                                                                                                    FOCUS




To p Te n M a n a g e m e n t C h a l l e n g e s O u t l i n e d I n O I G R e p o r t

                     THE FULL LIST OF OUR TOP 10 MANAGEMENT CHALLENGES ARE:

 • Aviation Safety                                                      • Transportation Security

 • Surface Transportation Safety                                        • Computer Security

 • Aviation System Capacity and Air Traffic Control Modernization       • Amtrak Financial Viability and Modernization

 • Surface and Airport Infrastructure                                   • The Maritime Administration’s Ship Disposal Program

 • Coast Guard Capital Acquisition Budget                               • Departmental Business Practices


OIG'S FOURTH ANNUAL REPORT          on the top management challenges facing the Department of
Transportation - released January 18 - examines some of the most pressing issues facing DOT. These
issues need to be dealt with to support safe and reliable transportation service, to prepare for necessary
budget decisions related to DOT programs, and to ensure that Federal transportation infrastructure
dollars are well spent.


The 10 management challenges can be broken down into four broad issue areas: Transportation Safety;
Stewardship of Transportation Funding; Immediate Budget Issues; and Aviation System Performance.



TRANSPORTATION SAFETY:              The most immediate safety issues as of January 2001 are:


■ Reducingrunway incursions (when planes come too close together on the ground) by implementing
 new technology to alert controllers of potential collisions and conducting evaluations of local action
 plans. The worst aviation disaster in civil aviation history was a runway accident between two 747s.
 The congestion at our airports today has increased the risk of runway accidents.


■ Reducing operational errors (when controllers allow planes to lose their required separation, usually in the air)
 by overseeing efforts to correct facility-specific problems at facilities with high numbers of operational errors.


■ Ensuring   that southern border inspection facil­
 ities are ready for implementation of the North
 American Free Trade Agreement. Recent
 increases in Federal inspectors at the southern
                                                               Federal inspector examines a Mexican truck at a border crossing in
                                                               Nogales, AZ.
 border correlated with a 4 percent reduction in the number of Mexican trucks placed out of service

 for significant safety violations after inspection.



■ Implementing   the Federal Motor Carrier Safety Improvement Act of 1999, which sought to reduce

 the 5,000 fatalities caused by motor carrier accidents each year by creating an Operating

 Administration within DOT devoted solely to truck and bus safety. DOT must fill key leadership posi­

 tions in the Federal Motor Carrier Safety Administration (FMCSA) and issue statutorily directed rule-

 makings. The new agency also needs to continue its multifaceted approach to enforcement, which

 combines education and outreach with strong enforcement of motor carrier safety regulations.



■ Implementing  the TREAD Act, which requires the National Highway Traffic Safety Administration

 (NHTSA) to expand the information it uses to determine if there is a defect meriting recall. NHTSA

 has relied heavily on consumer complaints – which generally provide information that is too little

 too late.



■ Addressing long-standing pipeline safety issues. The Research and Special Programs Administration

 (RSPA) needs to proceed expeditiously on several fronts, including working with the new

 Administration to evaluate rulemakings on oversight of pipelines in unusually sensitive and high-den­

 sity population areas. 




STEWARDSHIP OF TRANSPORTATION FUNDING:              The Department needs to ensure that infrastructure

money is spent wisely and without fraud. Over the

past several years Congress has authorized over

$230 billion in funds for highways, mass transit,

bridges, and airports. To date, highway and transit

funding have increased by over 40 percent and air-

port funds have increased 75 percent. This influx of

money and the increasing number of infrastructure

"mega projects" (e.g. projects costing in excess of

$1 billion) increases the need for vigilant oversight

to protect the Federal investment from possible

waste, fraud or abuse. (See related article, page 10)
                  INTERMODAL
                                                                            SURFACE       (1998)
                                                                        TRANSPORTATION
                                                                         EFFICIENCY ACT
                                                                              (1991)
IMMEDIATE BUDGET ISSUES.        Congress and the Department will be challenged this year by the con­
fluence of three spending issues:


■ Asof now, it will be very difficult for Amtrak to
 meet its statutory operating self-sufficiency man-
 date and the railroad will not survive without a
 significant infusion of capital. The Senate is con­
 sidering a bond bill designed to give Amtrak
 $1.2 billion extra a year for capital investments.
                                                         Amtrak faces funding shortfalls despite increasing riderships.



■ Coast  Guard estimates it will need $15 billion or more over the next 20 years to modernize assets crit­
  ical to its Deepwater and National Distress Response System programs.


■ FAA needs to control its operating costs, which have been rising at the rate of $500 million a year and are expect­
 ed to reach $7.5 billion in FY 2003. Most of that money must come from the General Fund, not the Aviation
 Trust Fund. Thus, it will be competing with Amtrak and the Coast Guard for available transportation dollars.



AVIATION SYSTEM PERFORMANCE: Simply            put, 2000 was the worst year on record for aviation delays
and cancellations. FAA reported a 90 percent increase in delays compared to 1995. Cancellations grew
at an even faster rate, increasing 104 percent. More than one in four flights were delayed, cancelled or
diverted, affecting some 163 million passengers with the average arrival delay exceeding 52 minutes. In
Calendar Year 2000, there were over 240,000 regularly scheduled flights (representing 10,300 individ­
ual flight numbers and affecting approximately 25 million passengers) that arrived more than 30 min­
utes late or were canceled at least 40 percent of the time during a single calendar month.


In a February 2001 report, we found the Airlines were making progress toward meeting their Customer
Service Commitment. However, we found the Commitment does not directly address the root causes
of customer dissatisfaction: flight delays and cancellations. Action by the Airlines to reduce flight delays
and cancellations in the immediate term is critical because major improvements in providing capacity to
meet demand, such as new runways and the fielding of new air traffic control capacity enhancing tech­
nology, are not going to be in place for at least the next several years.


The solution to this problem will also require Government action. Our report found that FAA and
DOT needed to establish and implement a uniform system for tracking delays, cancellations and their
causes; finalize capacity benchmarks for the nation’s top 30 airports; and develop strategic plans for
addressing capacity shortfalls in the short, intermediate, and long terms.
  FOCUS




P r o t e c t i n g Ta x p a y e r I n v e s t m e n t s i n a n d E n s u r i n g
Time ly Delive ry of Infrastr ucture Projects

FEDERAL SPENDING ON TRANSPORTATION              projects is at its highest levels since the construction of
the Interstate Highway System in the late 1950s and early 1960s. Enacted in 1998, the Transportation
Equity Act for the 21st Century (TEA-21) provided $218 billion for highway and transit projects
through FY 2003, a 40 percent increase over previous authorizations. The recently passed Wendell H.
Ford Aviation Investment and Reform Act for the 21st Century (AIR-21) made $12.4 billion available
for airport infrastructure projects through FY 2003, a 75 percent increase.

This influx of money and the increasing number of infrastructure mega projects such as Boston’s
Central Artery Project increases the need for vigilant oversight to protect the Federal investment from
possible waste, fraud or abuse. In the last two years, several instances have served to reinforce the impor­
tant lesson that DOT and its Operating Administrations must exercise vigorous and sustained attention:


MEGA PROJECTS:


■ An alarming lapse in FHWA’s oversight of the Central

                                                             Contract Grant Fra ud Recoveries
 Artery Project, despite repeated warnings, left the      50
                                                                                          $ 46 million
 agency unaware of mounting cost overruns and             45

                                                          40
 allowed the Department to be blindsided when the         35

 Project disclosed a $1.4 billion increase. In October    30
                                                          25
 1999, FHWA officials and project managers rejected
                                                          20
 OIG warnings of potential overruns. On February 1,       15
                                                                 $10.6 million
 2000, Central Artery Project managers revealed the       10

                                                           5
 costs would go up by $1.4 billion. In response, then-    $0

 Secretary Rodney Slater ordered FHWA to imple­                    FY 2000                 FY 2001

 ment our recommendations providing additional                     October 1, 2000 – March 31, 2001

 information in finance plans and increasing oversight
 of the Central Artery Project and other mega projects. We reviewed the revised finance plan for the Project
 and on November 29, 2000 reported that our concerns with cost and funding were addressed.


CONTRACT FRAUD:

■The settlement on January 17, 2001 of a contract fraud case in which two companies agreed to settle allegations
 that they used non-approved coated metal pipe in more than 200 Louisiana highway construction projects
                           between 1992 and 1997. The combined $30 million settlement by Ispat-
                           Inland, Inc., formerly known as Inland Steel Co. of Chicago, IL, and Contech
                           Construction Products, Inc., of Middletown, OH, was the largest civil settle­
                           ment involving substandard material in highway construction in DOT histo­
                           ry. Three former Contech employees and a former employee of Inland plead­
                           ed guilty to Federal felony charges and a Federal grand jury in Baton Rouge
                           indicted another former Ispat-Inland employee on charges of making false
                           statements to state officials. Trial remains pending.

  History has proven that effective stewardship is necessary when large sums of money are spent on pub­
lic works projects. The last comparable funding increase for infrastructure spending was during the
Eisenhower and Kennedy Administrations, when Congress authorized funding of the 41,000-mile
Interstate Highway System. Ineffective oversight led to the creation of a Special Congressional
Subcommittee, headed by Minnesota Congressman John Blatnik, which uncovered widespread fraud
and corruption among highway contractors and public officials responsible for managing the projects.
These episodes can adversely affect the integrity of the programs, undermine public trust and erode
DOT’s credibility and reputation.


STEWARDSHIP:

 Transportation Secretary Norman Y. Mineta has emphasized stewardship of Federal funds. The Secretary
told the Senate Committee on Environment and Public Works at a May 10 hearing: “I feel strongly that
with the increased Federal investment in transportation infrastructure in the past few years, we also need to
be especially aware of the potential for waste, fraud and abuse and develop mechanisms to identify it early
and prevent it. If we pay for a 10-sack concrete job, we should get a 10-sack concrete job, not a 7-sack job.”

 To help achieve the Secretary’s goal, OIG has made fraud prevention and detection in our infrastruc­
ture program one of its investigative priorities. This has included enhanced coordination with the
FHWA, the Federal Transit Administration, the American Association of State Highway and
Transportation Officials (AASHTO), the Justice Department, and the Federal Bureau of Investigations.
OIG has dedicated personnel to training and outreach programs as part of this effort. Since FY 1999,
our National and Regional Fraud Coordinators have provided fraud awareness briefings to more than
5,300 officials from FHWA, state highway departments, transit agencies, airport authorities and Federal,
state and local law enforcement authorities.

 Significant investigations during this reporting period (in addition to the Louisiana construction fraud
case cited above) related to fraud in the highway and transit programs include:

■ F o rmer   FHWA Official Sentenced in Briber y Case

 On October 6, 2000, former FHWA official James Clark was sentenced in U.S. District Court in
Alexandria, VA to 27 months in prison and ordered to pay $73,000 in restitution following his guilty
plea to bribery and wire fraud charges. James          H I G H W AY, T R A N S I T, A N D
                                                       AIRPORT MEGA PROJECTS
Clark had authority over FHWA contractors
                                                       Project Name                                  Project Cost
responsible for developing computer traffic simu­                                                     (Billions)
lators. In return for awarding contracts, Clark        Highway Projects
                                                       Alameda Corridor                                   $2.4

and his wife solicited and received approximately
                                                       California Route 30/210                            $1.1

$150,000 in personal loans and consulting contracts.   Central Artery / Ted Williams Tunnel               $14.1

                                                       Cypress Freeway                                    $0.967

■ Contractor   Ordered to Pay Damages in               Edsel Ford Freeway, Detroit, MI                    $1.3

                                                       Interstate 15, Salt Lake City, Utah                $1.6

 DBE Case
                                                       Interstate 25 Corridor, Denver, CO                 $3.3

                                                       Interstate 278, Gowanus Expressway                 $0.8 

 A U.S. District Court judge in Washington, DC         Interstate 635, North Dallas, TX                   $1.5

ordered TDC Management Corp. (TDC) and its             Maryland Intercounty Connector                     $1.2

                                                       Miami Intermodal Center                            $1.9

president, T. Conrad Monts, to pay $1,285,198
                                                       Milwaukee East-West Corridor                       $0.55 to $0.870

in damages for violating the False Claims Act.         Mon-Fayette Expressway                             $2.5

TDC was convicted of misstating progress in            Tampa Interstate                                   $1.5

                                                       Spokane Freeway                                    $1.1

implementing a program to assist disadvantaged         Springfield Interchange, Alexandria, VA            $0.6

business enterprises (DBE) in securing bonds for       Texas Route 130                                    $1.0

                                                       West Virginia’s Corridor H                         $1.3

FTA-assisted contracts.
                                                       Woodrow Wilson Bridge                              $2.4


  During the reporting period, OIG continued its       Transit Projects
outreach and educational activities by hosting,        Atlanta North Line Extension                       $0.5
                                                       Bay Area Rapid Transit Extension                   $1.5
with AASHTO, FHWA, and FBI, a National
                                                       Dallas North-Central Light Rail Extension          $0.5
Fraud Conference on Highway Construction and           Denver Southeast Corridor                          $0.9
Related Programs on October 30-31 in Atlanta,          Houston Regional Bus                               $1.0
                                                       Hudson Bergen Rail                                 $2.2
GA. The conference attracted over 325 individ­
                                                       Los Angeles Red Line                               $4.5
uals from Federal and state law enforcement            Minneapolis/Hiawatha Corridor Light Rail Transit   $0.7
agencies, state highway and transit departments,       St. Clair Extension/St. Louis MetroLink            $0.3
                                                       South Boston Piers Transit Way                     $0.6
and state prosecutors and Inspector General            San Juan Tren Urbano Rail Transit                  $1.7
offices nationwide. Special Agents from OIG and
                                                       Airport Capital Improvement Projects
FBI, along with DOJ prosecutors, gave presenta­
                                                       Chicago O’Hare International Airport               $2.1
tions on several successful fraud investigations       Los Angeles International Airport                  $4.9
involving highway construction, anti-trust,            Dallas/Fort Worth International Airport            $3.9
                                                       San Francisco International Airport                $4.4
bribery, and false claims.                             Denver International Airport                       $1.6
                                                       Lambert International Airport (St. Louis)          $2.1
 Between October 1, 2000 and March 31, 2001,           Miami International Airport                        $5.0
OIG monetary recoveries from our national con-         George Bush International Airport (Houston)        $1.2
                                                       Fort Lauderdale International Airport              $1.7
tract and grant fraud initiative have exceeded
recoveries in all of the prior fiscal year. The 28
  indictments obtained in the first six months of this fiscal year also represent a substantial increase from
the first six months of last year and underscore the need for the Department’s stewardship and over-
sight of these funds.

  But problems go beyond outright fraud. In response to our recommendations stemming from the
Central Artery Project, FHWA issued new guidance on mega project finance plans. FHWA must con­
tinue to enforce the new guidance. All DOT agencies must implement the recommendations of the
Task Force on Oversight of Large Transportation Infrastructure Projects.

 FTA also faces a special challenge in maintaining oversight of large infrastructure projects. The num­
ber of full funding grant agreements has nearly doubled in the last year, resulting in a decline in FTA
resources available for oversight of each individual construction project. Finally, FAA needs to gear up
to oversee the anticipated increase in airport infrastructure funding.
  FOCUS




A I R L I N E C U S T O M E R S E R V I C E A N D F L I G H T D E L AY S


FLIGHT DELAYS AND CANCELLATIONS HAVE REACHED                 unprecedented levels and are the primary

cause of heightened consumer frustration with the air transportation system. The issue took center stage

in January 1999, when hundreds of passengers were stuck in planes on snowbound Detroit runways for

up to 8 hours. Following that incident, Congress conducted hear­

ings and considered whether to enact a "Passenger Bill of Rights."

After debate, Congress, DOT, and the Air Transport Association

(ATA) agreed that the air carriers should have an opportunity to

improve their customer service without legislation. To demon­

strate the Airlines' ongoing dedication to improving air travel,

ATA and its member Airlines executed the Airline Customer

Service Commitment on June 17, 1999. Each Airline agreed to

prepare a Customer Service Plan implementing the 12 provisions

of the Commitment. 



In this semiannual reporting period we conducted two related audits: 1) a Congressionally requested

review of Airlines' compliance with their Customer Service Commitment (Report Number: AV-2001-

020); and 2) a review of the extent of flight delays and cancellations (Report Number: CC: 2001-118). 



The following statistics from our work on flight delays and cancellations illustrate the seriousness of

the problem: 

■ Arrival delays increased 33 percent (from 1,019,363 to 1,355,176) between 1999 and 2000. In the

  same time frame, cancellations rose at the even higher rate of 257 percent (from 52,458 to 187,317).


■ In2000, more than one in four flights (27.5 percent) were delayed, canceled, or diverted, affecting

 approximately 163 million passengers.


■ Flights
       experiencing taxi-out times of 1 hour or more increased nearly 13 percent (from 40,789 to

 45,993) between 1999 and 2000.


■ For 2000, we identified over 240,000 regularly scheduled flights that were chronically delayed, i.e.,

 arrived at least 30 minutes later than scheduled and/or were cancelled at least 40 percent of the time

 during a single calendar month, affecting approximately 25 million passengers.

 These statistics put into context our work on how well the Airlines lived up to their Customer Service
Commitment. Overall, we found the Airlines were making progress toward meeting their Commitment
and the Airlines’ Commitment has been a plus for air travelers. We found the Airlines were making the
greatest progress in such areas as offering the lowest fare, holding reservations, and responding in a
timely manner to complaints.


 Our biggest concern, however, was that the Commitment does not directly address the most deep-seat­
ed, underlying cause of customer dissatisfaction, which are flight delays, cancellations and baggage not
showing up with passengers. We found that:
■ In 21 percent of our observations of nearly 550 flight delays nationwide, the flight information display
  system showed the flight as on time when, in fact, the flight had been delayed for more than
  20 minutes.

■ Timely   announcements about the status of the delay were made in the gate areas 66 percent of
 the time.

■ Whenstatus announcements were made, the information provided about the delay or cancellation was
 adequate about 57 percent of the time.

■ Baggage that did not show up with the passenger was delivered within 24 hours between 58 and 91
 percent of the time.


In our report on airline customer service, we made more than 25 recommendations, including:
■ Disclosing to passengers, at the time of booking and without being asked, the prior month's on-time
  performance rate for those flights that have been chronically delayed and/or cancelled 40 percent or
  more of the time.

■ Ensuring   that passengers received timely, accurate and complete information about delays.

■ Making   the Commitment provisions enforceable under the contract of carriage or by regulation.


 Since our report was issued, a variety of legislative proposals
have been introduced in Congress and the Airlines have
announced additional initiatives to improve customer service.
On March 15, the Senate Commerce Committee adopted leg­
islation incorporating many of the OIG recommendations (S-
319). While similar legislation is pending in the House, efforts
to obtain further Airline action voluntarily are also proceeding. As we go to press, it appears that the
joint government-private sector effort to solve this multifaceted problem is having positive results.


 Real progress will require concerted action and initiatives by the Department, FAA, airlines, and air-
port authorities over the short term (1-2 years), intermediate term (3-5 years), and long term (6-10
years). Multi-faceted solutions are needed in the form
of new air traffic control technology, airspace redesign,
and infrastructure improvements, including airport
expansion. The largest capacity increases will likely
come from building new airports and runways.
According to FAA, there are currently 14 new runway
projects either planned or under construction at the 30
largest airports, which are expected to be completed
within the next 7 years. As these enhancements will take several years to implement, we can expect only
limited bottom-line relief over the next few years.


Short-term actions that might ease existing capacity constraints in the meantime, include:
■ Having Airlines voluntarily help minimize the impact of flight delays and cancellations on travelers by
  addressing matters under their control, such as chronically delayed or canceled flights and checked
  baggage not arriving with passengers.

■ Using“capacity benchmarks” to understand airline scheduling practices and what relief can be expect­
 ed from new technologies and runways. In response to this recommendation, FAA issued a set of
 “capacity benchmarks” for the Nation’s top 31 airports in April 2001. The benchmarks define the
 maximum number of flights per hour an airport can routinely handle at various times of the day and
 under favorable and unfavorable weather conditions.

■ Having   airlines voluntarily change their schedules to ease capacity crunches during peak hours. If
 this self-discipline is not successful, the pros and cons of additional steps should be weighed. These
 steps could include congestion pricing or administrative allocations of capacity such as slot lotteries
 or scheduling committees under antitrust supervision.

■ Creating a uniform system for tracking delays, cancellations, and their causes. DOT’s ability to
 address delays and cancellations is significantly hampered by uncollected, misleading and/or
 inconsistent data. DOT established an advisory committee that in November 2000 made recom­
 mendations on collecting relevant data. DOT’s Bureau of Transportation Statistics initiated a pilot
 program to establish uniform reporting of the causes of flight delays and cancellations. BTS needs
 to complete its work and the Department needs to issue a rule requiring such reporting by all car­
 riers subject to the on-time reporting requirement.
■ Focusing  on national airspace redesign efforts and system choke points. FAA has initiated efforts to
 address seven choke points east of the Mississippi River. FAA needs to finish its work, including assess­
 ing staffing levels for some facilities, examining the need for new air traffic control sectors, and explor­
 ing ways to exchange radar data with Canada to assist in the rerouting of aircraft.


 We are closely monitoring progress in each of these areas and are conducting audits on flight delay
causal data, air carrier scheduling practices, administrative and market-based options for managing
excess flight volume, and FAA’s capacity enhancement and related modernization efforts.
✑     Work         Planned              and       in     P r o g r e s s





IN THIS SECTION, WE HIGHLIGHT OUR MOST           significant ongoing or planned work on Department-
wide issues and on each of the Department’s operating administrations. Our work also addresses the
Department’s top strategic goals: Safety, Mobility, Economic Growth and Trade, Human and Natural
Environment, National Security, and Organizational Excellence.


For example, to support the safety goal, we are evaluating FAA’s oversight of aircraft maintenance, the
Federal Railroad Administration’s oversight of railroad safety action plans, and FMCSA’s efforts to
implement motor carrier safety program improvements in anticipation of opening the southern border
under NAFTA. To support the national security goal, we continue to review Departmental computer
systems controls and FAA’s deployment of explosive detection equipment in the nation’s airports.


We have annotated each of the following entries to show the connection between our current work plan
and the Department’s strategic goals.



Department-Wide:

FRAUD DETECTION AND PREVENTION


■ Continue  oversight of the unprecedented infusion of Federal funds for infrastructure projects
 authorized under TEA-21 and AIR-21, including audits of financial plans, cost schedules, project
 management, and prevention and detection of fraud. Our efforts are intended to avoid a repeat of
 historical scandals associated with the building of the interstate system. (Mobility and
 Organizational Excellence)




COMPUTER SECURITY


■ Continue to review computer network security issues throughout the Department, specifically in
 terms of FAA’s telecommunications infrastructure and the Coast Guard’s operations systems center.
 (National Security and Organizational Excellence)
FINANCIAL STATEMENTS


■ Determine    whether FY 2001 financial statements prepared by the Department’s Operating
 Administrations conform with Generally Accepted Accounting Principles, have adequate internal con­
 trols over financial reporting, and comply with laws and regulations that could have a direct and mate-
 rial effect on the financial statements. (Organizational Excellence)



■ Providetechnical support to Department financial management officials to identify and correct
 material weaknesses and to reestablish a clean opinion on FY 2001 financial statements.
 (Organizational Excellence)



Operating Administrations:

FEDERAL HIGHWAY ADMINISTRATION


■ Determine  whether Congressionally-designated high priority projects: (1) were included in state and
 regional transportation plans; (2) have been completed and what problems were encountered in
 implementing these projects; and (3) have reliable cost estimates and how related funding was obli­
 gated and expended. (Mobility and Economic Growth)

■ Review cost estimates for the Woodrow Wilson Bridge Reconstruction Project and assess whether the
 estimated cost, funding and schedule of the project are reasonable. (Mobility)

■ Evaluatethe cost estimate of the Springfield, VA Interchange
 Construction Project and review the adequacy of the funding and
 scheduling of the project. (Mobility)



■ Assess FHWA’s oversight of the states’ bridge inspection program, specifically emphasizing invento­
 ries, funding, and safety deficiencies. (Mobility and Safety)




FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION


■ Assess FMCSA’s progress in implementing OIG’s April 1999 recommendations to improve motor
 carrier safety and validate the quarterly data submitted by the agency to Congress on the number of
 violations cited by safety investigators, the level of fines assessed and collected, and the number of
 enforcement cases citing extraordinary statistics. (Safety)



■ Assess FMCSA’s Mexican truck safety oversight in
 readiness for opening the borders under NAFTA.
 (Safety)



■ Determine       whether FMCSA’s Safety Status
 Measurement System ensures that high-risk motor
 carriers are identified. (Safety)



FEDERAL RAILROAD ADMINISTRATION/AMTRAK


■ Assess
       the accuracy of information in FRA’s safety inspection reports and database, and determine
 whether the database information is used
 appropriately to calculate defect ratios. (Safety)



■ Evaluate the effectiveness of FRA’s policies and
 actions to ensure railroads take appropriate
 remedial actions to correct safety deficiencies
 identified in the Safety Assurance and
 Compliance Program. (Safety)



■ Assess   Amtrak’s 2001 Strategic Business Plan and overall financial status. (Mobility)



UNITED STATES COAST GUARD


■Determine   whether the Coast Guard has remediated deficiencies in the planning process for its
 Deepwater Capability Replacement Project, justified its planned budget requests and integrated fund­
 ing requirements with ongoing capital needs. (National Security, Safety, and Organizational
 Excellence)
■Evaluate  the Coast Guard’s progress in implementing and addressing deficiencies in the National
 Distress System, and whether the proposed cost and schedule for the National Distress and Response
 System Modernization Project are reasonable. (Safety)



■ Determine  the status, historical trends, and plans for the Coast Guard Search and Rescue program’s
 personnel, staff training, facilities and equipment, services, and funding. (Safety)



■ Analyzethe management and direction of the Coast Guard’s research and development program and
 the allocation and justification of funds for research and development projects. (Organizational
 Excellence)



FEDERAL TRANSIT ADMINISTRATION


■ Provide oversight of infrastructure projects authorized under TEA-21, including audits of cost sched­
 ules, project management, oversight, and prevention and detection of fraud. (Mobility)

■ Review plans for the Seattle Central Link Light Rail Project and determine the reasonableness of the
 current cost and schedule estimates.

■ Examine    FTA’s oversight of the contracting practices of federal grant recipients. (Mobility)



NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION


■ Evaluate how NHTSA identifies and investigates vehicle safety programs, issues consumer alerts and
 recalls, and updates its safety standards. In addition, identify notification, investigation, and recall
 requirements considered as “best practices” by other regulatory agencies that may be used as models
 for improving the Office of Defects Investigation. Access NHTSA’s efforts to enhance public aware­
 ness of its defects investigations. (Safety)



                     ■ Assess NHTSA’s efforts to increase seat belt use rate; evaluate whether NHTSA is
                     allocating money to projects most likely to achieve Departmental performance
                     goals; and assess the quality and nature of NHTSA’s technical assistance to state and
                     local governments. (Safety)
                                     RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION


                                     ■ Assess   whether the pipeline inspection industry has, or can
                                     develop, the capacity needed to complete internal inspections
                                     required as part of mandated, comprehensive baseline assess­
                                     ments of large hazardous liquid pipeline operators. (Safety and
                                     Human and Natural Environment)



■ Evaluatethe Department's actions to ensure the safe transportation of an increasing number of
 high-level and transuranic nuclear waste shipments. (National Security, Safety, and Human and
 Natural Environment)




FEDERAL AVIATION ADMINISTRATION




■ Assessthe acquisition, development and deployment strategy of
 FAA’s technology programs, such as Free Flight Phase One,
 Wide Area Augmentation Systems, National Airspace System
 Infrastructure Management System, and new aviation weather
 systems. (Mobility and Safety)



■ Determine if FAA is administering payment and closeout of cost reimbursement contracts in accor­
 dance with acquisition policy and guidance. (Organizational Excellence)



■ Assess
       FAA’s oversight of the air carriers’ Continuing Analysis and Surveillance Systems for aircraft
 maintenance. (Safety)



■ Evaluate  FAA’s efforts to identify and deploy new technologies to reduce runway incursions and
 efforts to reduce operational errors. (Safety)



■ Assess FAA’s progress in implementing its Air Transportation Oversight System and identify any bar­
 riers to successful implementation. (Mobility and Safety)
■ AssessFAA’s progress on deployment of explosive detection equipment and whether cargo security
 requirements are adequate to prevent explosive devices and other contraband from being transported
 on commercial aircraft. (National Security and Safety)



■ Assess
       whether growing flight delays and cancellations have been increased due to growing flight vol­
 ume, air carrier scheduling practices, and ground infrastructure constraints; determine the status of
 DOT and FAA initiatives in documenting flight delay and cancellation causes; and identify options for
 reducing delays. (Mobility)



■ Evaluatethe airline merger review process with emphasis on how transitional service disruption and
 competitive aspects of customer service are considered and by whom. (Economic Growth)



■ Evaluate the compensation and pay systems of FAA’s air traffic managers, supervisors, and specialists.
 Assess the impact of limiting the pay system to air traffic facilities on staffing, management, and over-
 sight of the air traffic control system. (Mobility and Organizational Excellence)
This page left intentionally blank.
                                        Audits             &     Investigations                         �
                                       October 1, 2000 - March 31, 2001




T H E O F F I C E O F I N S P E C T O R G E N E R A L I N C L U D E S A S TA F F O F A U D I TO R S A N D
A N A LYS T S   who review DOT programs and make recommendations to enhance their effectiveness and
improve their efficiency. Our aim is to ensure the Department spends taxpayer funds in a prudent and proper
manner. Some audits focus on financial issues; others provide oversight of safety programs, contract
management, computer security and program performance. The Inspector General’s staff also includes
trained criminal investigators who build criminal cases against lawbreakers — such as trucking firms that
force drivers to work too many hours without rest, haulers who illegally transport hazardous materials,
vendors who traffic in illegal, unapproved aircraft parts and Department employees who abuse the public trust.

  Many factors go into determining what to audit. Some audits are required by law. Others are requested by
key decision-makers, such as the Secretary of Transportation, heads of the Operating Administrations with-
in DOT or Members of Congress. The OIG audit plan is also based on the past experience of an audited enti­
ty, the strategic goals of DOT, and priorities established each year by OIG itself.

 Information for OIG investigations also comes from many areas. DOT’s Operating Administrations and
state government officials often refer tips or information about suspicious activity to OIG special agents.
Those agents, often with assistance from other law enforcement agencies, conduct investigations utilizing,
as necessary, judicial tools such as search warrants and subpoenas to obtain evidence.

  Another source of investigative direction is the Office of Inspector General Hotline, a toll-free number that
lets citizens — including federal workers — have direct access to OIG staff. The number is
1-800-424-9071. Hotline users are not obliged to disclose their identities, and “whistle-blowers” within
the government are protected from reprisal by Federal law. The Hotline staff can also be e-mailed at
hotline@oig.dot.gov.

 The Inspector General Act requires the Department to provide the Inspector General with all requested
information and for the IG to report any instance in which access was denied. DOT officials withheld no
information requested by OIG during the 6 months covered in this report. ■
�        O c t o b e r





Improving Aircraft Wiring Safety                                                                   October 5

IN TESTIMONY BEFORE THE HOUSE                  Transportation Committee’s Subcommittee on Oversight,
Investigations, and Emergency Management, the Assistant Inspector General for Auditing testified that
while the U.S. aviation system is remarkably safe, recent accidents and incidents have heightened concerns
about the safety of nonstructural aircraft systems, such as wiring. Since the TWA Flight 800 accident, FAA
has issued over 40 airworthiness directives on wiring for large commercial aircraft. However, recent
FAA/industry inspections of older aircraft show the need for additional actions.

Specifically, FAA needs to: (1) develop an overall implementation strategy to guide efforts currently under-
way to enhance the safety of nonstructural systems: and, (2) revise the Service Difficulty Reports, (through
which airlines and repair stations report failures, malfunctions, and defects) to include specific codes for wiring.



Former FHWA Official Sentenced                                                                     October 6

FORMER FEDERAL HIGHWAY ADMINISTRATION OFFICIAL                   James Clark was sentenced in U.S. District
Court in Alexandria, VA, to 27 months in prison, 24 months’ probation and ordered to pay $73,000 in
restitution following his guilty plea to bribery and wire fraud charges. His wife, Brenda Clark, pleaded
guilty in April 2000 to receiving a kickback and served 30 days in jail, 60 days’ home detention, and was
ordered to pay $23,000 in restitution. James Clark had authority over FHWA contractors who performed
transportation research and engineering projects under multi-million dollar government contracts. The
contracts were for research and development of Intelligent Transportation Systems, such as computer traf­
fic simulators. In return for awarding contracts, the Clarks solicited and received approximately $150,000
in personal loans and consulting contracts, and used a series of pass-through companies and a business
name to conceal their activity. OIG and FBI investigated the case.



Oversight of Manufacturers’ Systems

for Aviation Threaded Fasteners                                                                  October 11


FEDERAL AVIATION REGULATIONS REQUIRE THAT           aviation fasteners be manufactured under an FAA-
approved production process. These fasteners are used throughout an aircraft – including critical appli-
                                                                                       October                 �




cations such as holding engines onto the airplanes. To test the effec­

tiveness of FAA’s oversight, we contracted with an accredited inde­

pendent laboratory to test whether threaded fasteners were in compli­

ance with manufacturing standards. The laboratory found a noncon­

formance rate of 27 percent. In response, FAA sent the nonconform­

ing fasteners for retesting to the manufacturers that produced them,

who found only a 3 percent nonconformance rate. Based on the man­

ufacturers’ results, FAA concluded that no systemic problems existed.



The retest results from the manufacturers, however, raised a serious

question as to why there would be such a significant difference in test

results between an accredited laboratory and FAA-approved manufac- for   Hill Air Force Base Technician testing a bolt

                                                                             thread dimensions during OIG’s audit of
turers. Slow to respond to this question, FAA eventually agreed to our aviation threaded fasteners.
recommendation that it conduct a comprehensive investigation to reconcile the disparity in test results.
FAA also agreed to improve its surveillance of fastener manufacturers and to require manufacturers to
establish regular inspection intervals of their subcontractors.



Airworthiness Falsification on Helicopter

Blades Yields Conviction                                                                           October 18


FRANK CURTIS CHERRY, JR., OWNER OF          the now-defunct Cherry Air Specialties in Torrance, CA,
and his son, Frank Curtis Cherry, III, pleaded guilty in U.S. District Court in Los Angeles to
charges that they falsified the airworthiness certificate of a Robinson R-22 helicopter and rotor
blades to conceal their poor condition. The Cherrys were indicted in May 1999 on charges of
selling the helicopter and blades to a co-conspirator in New Zealand who then sold them to a
private party. The co-conspirator was convicted in 1997 in New Zealand and served a three-
year jail term. The helicopter’s blades disintegrated while in flight, killing both the pilot and the
passenger. OIG conducted this investigation with the FBI and New Zealand police, and with
the assistance of FAA.
�        O c t o b e r





Cylinder Tester Jailed for False

Tests on Divers’ Air Tanks                                                                   October 18


LARRY NEISINGER, AN EMPLOYEE OF             Fire Service, Inc., pleaded guilty in U.S. District Court in

Norfolk, VA, to charges of failing to properly con-

duct tests on hundreds of compressed gas cylinders

and falsely certifying them as serviceable. Neisinger

was sentenced to 90 days’ confinement and 1 year’s

probation. Among the improperly tested cylinders

were scuba tanks used by U.S. Navy Seal teams.

Periodic cylinder testing is vital to ensuring that

tanks are safe from defects and material fatigue,

which can cause cylinders to explode when under

pressure. OIG investigated this case with the Naval Compressed air tanks improperly tested by Fire Service, Inc.

Criminal Investigative Service (NCIS). 




Airport Security Firm Fined $ 1 Million                                                      October 20

ARGENBRIGHT HOLDINGS LTD., AN AIRPORT                  security contracting company was fined $1 million by

a U.S. District Court judge in Philadelphia, PA, following its May 2000

guilty plea for falsifying training and background investigation records

of security employees manning security checkpoints at Philadelphia

International Airport. These false records violated the certification

terms of Argenbright’s contracts with Delta, American, and United

Airlines. The investigation disclosed that on several occasions

Argenbright officials failed to conduct background investigations, as

required under FAA security regulations, which enabled convicted

felons to receive unescorted access to secure areas of the airport. The

firm was also ordered to reimburse air carriers $350,000 and to pay

$200,000 for the cost of the investigation. In September 2000, three former Argenbright employees were fined

a total of $20,000 and sentenced to probation. One of these employees, former district manager Steven Saffer,

also was sentenced to 30 months’ incarceration. OIG investigated this case with assistance from FAA.

                                                October                    -   November            �




Trucker Sentenced for Obtaining Fraudulent CDLs                                         October 25

WAYNE D. MCALLISTER WAS SENTENCED                 by a U.S. District Court judge in Florence, SC, to 6
months’ house arrest for using a false Social Security number and forging a doctor’s signature on med­
ical and drug testing forms to illegally obtain a commercial drivers’ license. McAllister knew that he was
not medically eligible to drive a commercial truck. OIG investigated this case with the South Carolina
Transport Police and FMCSA.



Truck Driver Involved in Fatal

Accident Sentenced to Jail                                                             November 7


JAMES R. PALMER, A TRUCK DRIVER FOR Extec          USA in Lester, PA, was sentenced by a U.S. District
Court judge in Philadelphia, PA, to 5 months’ in jail and fined $2,500 after pleading guilty to falsify­
ing his daily drivers’ logbook. Palmer was involved in a fatal accident in May 1999, on Interstate 76
near Valley Forge and the Pennsylvania Turnpike. At the time of the fatal crash, his logbook reflected
he was off duty when, in fact, he was driving without a rest break.



Interstate 15 Reconstruction Project in Utah                                         November 13

OUR FOLLOW-UP REVIEW OF THE INTERSTATE 15
Reconstruction Project (I-15), which was almost 90
percent complete, did not identify any issues that
would adversely affect costs, schedule, funding, or
completion of the project. The Utah Department of
Transportation had implemented the recommenda­
tion in our previous report to keep its finance plan
current. In addition, the $1.632 billion cost esti­
mate of the I-15 project was reasonable, and fund­
ing to complete the project was sufficient. Finally,
                                                          Interstate 15.
the project was 3 months ahead of the original
schedule.
�        November                 -   D e c e m b e r





VDOT Engineer Sentenced for 

Diverting FHWA Funds                                                                November 16


A U.S. DISTRICT COURT JUDGE IN RICHMOND, VA,               sentenced Ronald Reekes, a former Virginia
Department of Transportation (VDOT) Engineer, to 2 years’ probation, 250 hours’ community serv­
ice, and ordered him to pay a fine of $5,000. Reekes pleaded guilty to a misdemeanor in August 2000
for instructing three VDOT inspectors to charge their time, amounting to over $40,000, to the
Federally-funded Route 460 highway project for work completed on a non-Federal VDOT industrial
access project. Reekes’ alleged reason for diverting the funds was due to the fact that the industrial
access project did not have adequate state funding. VDOT repaid the FHWA to recover its loss. OIG
investigated this case with the FBI and the Virginia State Police.



Central Artery Finance Plan

Consistent and Reasonable                                                           November 29


OUR REVIEW OF THE OCTOBER 1, 2000          Central Artery/Tunnel Project Finance Plan (Project) found:
(1) it was consistent with FHWA guidance; (2) the estimated completion cost of $14.075 billion
appeared reasonable but still had some risk of cost escalation if the assumptions upon which the esti­
mate was predicated did not hold; (3) the Project had committed funding to meet the estimated cost
of $14.075 billion but the funding faced some risk; (4) the Project schedule appeared reasonable and
attainable but faced a potential delay of up to 120 days, for a cost of $75 million if not properly miti­
gated; and (5) the State of Massachusetts had provided for a balanced statewide transportation program.
We recommended that FHWA closely monitor the factors underlying the cost and funding assumptions.
FHWA concurred with our conclusions.



Former Manager Sentenced in

Aviation Parts Fraud Case                                                              December 1


DAVID TAESCHLER, FORMER GENERAL MANAGER          of Tam Metal Products, Inc., of Mahwah, NJ, was placed on
                                                                                   December                    �




12 months’ probation and fined $5,000 by a U.S. District Court judge in Trenton for conspiracy to commit wire
fraud for his role in a scheme involving aircraft parts. In 1996, Menasco Aerospace, of Ontario, Canada, ordered
metal parts from Tam for Boeing 757 wheel assemblies, specifying that the parts were to be heat-treated by a
Boeing-authorized treater. Taeschler, however, falsely represented that the parts had been heat-treated when some
were not. Without heat-treating, aviation parts may crack and jeopardize the travelling public. OIG investigated
this case with assistance from FAA.



Two Trucking Firm Managers Sentenced                                                              December 4

MICHAEL MORAIN AND WAYNE SMITH                were sentenced
in U.S. District Court in Los Angeles, CA, to 5 years’ pro­
bation, 30 days’ imprisonment, and 3,000 hours of com­
munity service for violating Federal hours of service regula­
tions. The two former employees of Atlas Bulk, Inc., of
Paramount, CA, pleaded guilty in June to creating false
drivers’ daily logs to hide the actual number of hours driv­
en by company drivers. The false drivers’ daily logs were
discovered during the course of a related criminal investiga­
tion of Atlas Bulk. The owner of Atlas Bulk is currently
serving a 15-month prison term for violating Federal haz- Truck driver’s logbook with falsified entries similar to those
                                                                seized as evidence in the Atlas Bulk case.
ardous materials regulations relating to the repair of tankers

transporting gasoline. OIG investigated this case with the FBI, California Highway Patrol and FMCSA.




MARAD Supervisor Pleads Guilty

to Receiving Payments                                                                             December 4


FRANCIS PETER O’CONNELL, SUPERVISORY MARINE             surveyor at the MARAD Central Region in
New Orleans, LA, pleaded guilty in U.S District Court in Beaumont, TX, to receiving compensation
from a prohibited source. BGI Enterprises, Inc., paid O’Connell $5,750 for consulting services on a
Coast Guard contract while O’Connell was employed by MARAD. OIG investigated this case with the
FBI and the Defense Criminal Investigative Service (DCIS).
�         D e c e m b e r





Bus Driver Jailed for Stealing Fare Collections                                                    December 4

CINCINNATI METRO BUS DRIVER DAVID GAST             was sentenced to 10 months’ jail, 36 months’ super-
vised release and ordered to pay $120,000 in restitution in U.S. District Court in Cincinnati for steal­
ing $120,000 in bus fares from Cincinnati’s Metro bus system between May 1996 and October 1999.
Gast, who transported vaults to the bank for deposit, pleaded guilty in August to theft. Metro auditors
contacted Federal authorities for assistance in identifying lost money after a routine audit found dis­
crepancies. Marked currency planted by the FBI and OIG was ultimately tracked to Gast’s personal
bank account.



Sentencing In Aviation Hazmat Case                                                                 December 5

CONCEPCION LÉON OF PUERTO RICO            was placed on 36 months’ probation, 8 months’ home con­

finement, and ordered to pay $5,214 in restitution to

American Airlines by a U.S. District Court judge in

Brooklyn, NY, for illegally offering hazardous material

to an air carrier for shipment. Leon utilized curbside

check-in at New York’s LaGuardia Airport in an

attempt to ship a box containing flammable paint

aboard an American Airlines flight to Florida. Leon

concealed the box’s DOT-required hazardous materials

placard and told a skycap that the box contained books.

Baggage handlers detected a solvent-type odor and dis­

covered the box to be leaking. OIG investigated this

case with assistance from FAA.	                          Box containing hazardous materials seized as evidence during
                                                               investigation of Concepcion Léon.




Water Testing Laboratory President Sentenced                                                       December 6

MONTELL WATKINS, PRESIDENT OF     Johnson Properties, Inc., was sentenced by a U.S. District Court
judge in New Orleans, LA, to 3 months’ probation, 100 hours of community service, and ordered to
pay a $3,000 fine. Watkins pleaded guilty to falsifying discharge-monitoring reports sent to the
                                                                           December                  �




Louisiana Environmental Protection Agency office. As a result of Watkins’ actions, untreated sewage
was released into the Louisiana intercoastal waterways. To date, this investigation has yielded seven cor­
porate guilty pleas and $6.3 million in fines and restitution. OIG investigated this case with the EPA,
FBI, Postal Inspection Service, and the Coast Guard Investigative Service.



Background Checks of Airport Employees

Need Improvement                                                                        December 7


CONTROLLING ACCESS TO SECURE AIRPORT AREAS                 continues to be of great concern. We found
that although control requirements are in place to limit access to secure airport areas, FAA has not taken
adequate steps to ensure these requirements are met. First, FAA’s background investigation require­
ments for granting unescorted access to secure airport areas are ineffective because the investigations do
not adequately ensure that individuals granted unescorted access can be trusted with the public’s safe­
ty. For example, criminal record checks are required only for individuals applying for airport identifi­
cation badges (airport ID) when one of four conditions triggers the checks. Second, background inves­
tigation requirements frequently are not routinely followed.


We recommended requiring an FBI criminal record check for each individual granted unescorted access
to secure areas, expanding the list of crimes that disqualify an individual from being granted access, and
issuing new rules requiring airport operators and air carriers to audit the number of active airport IDs.
The Airport Security Improvement Act of 2000 adopted two of our recommendations.



Truck Driver Sentenced for Falsifying

Medical Certification                                                                    December 8


A U.S. DISTRICT COURT JUDGE       in St. Louis, MO, sentenced Dennis Auten, former driver for Speidel
Transportation, to 1 month in jail, 36 months’ supervised release and prohibited him from driving a
commercial vehicle. Auten pleaded guilty in September 2000 to falsifying his medical history to obtain
a commercial drivers license. In 1998, Auten’s tractor-trailer crashed into a passenger vehicle, killing its
two occupants. A preliminary inquiry by the Georgia State Highway Patrol disclosed Auten caused the
accident when he “blacked out.” As a result, FMCSA asked OIG to investigate Auten’s DOT medical
�        D e c e m b e r





certification. The investigation determined Auten lied during his medical examination by hiding a pre-
existing medical condition involving seizures, convulsions and fainting spells. As a result of OIG’s inves­
tigation, Speidel Transportation has ceased all operations. OIG investigated this case with FMCSA.



Two former Pipeline Company Officials Sentenced                                       December 13

ROBERT REID, FORMER PRESIDENT OF           Iroquois Pipeline Operating Company, and John Mackenzie,
a former engineering and construction manager, were each sentenced in U.S. District Court in Syracuse,
NY, to 1 year’s probation, 6 months’ home confinement, and fined a total of $50,000 for violating the
Clean Water Act, in connection with the construction of a natural gas pipeline running approximately
370 miles from Canada to Long Island. Iroquois was fined $22 million in 1996 after pleading guilty to
charges of failing to properly clean up numerous rivers, streams and wetlands and failing to install pro­
tective devices to prevent soil erosion and minimize damage to wetlands. These mark the second and
third sentences to be imposed for four Iroquois officials who were convicted of negligently violating the
Act. The prosecutions were the result of a multi-agency investigation by DOT-OIG, the Department of
Energy OIG, EPA, FBI, DCIS, Army Corps of Engineers, the U.S. Attorney’s Office and state agencies.



Airport Noise Compatibility Program                                                   December 14

FAA DID NOT ENSURE THAT AIRPORT NOISE grants           were used for eligible or the highest priority proj­
ects. For example, FAA awarded noise grants to sound-insulate residences that were not eligible for
funding, and provided new noise grants to jurisdictions that had not spent grant funds from previous
years. FAA is also at risk of awarding $48 million to airports based on outdated noise exposure maps
that do not reflect noise level reductions from the use of quieter aircraft. We recommended that FAA
recover $328,000 awarded for ineligible noise projects, delay awarding additional grants to jurisdictions
until progress is made spending available grants, require sponsors to develop and implement plans for
disposing of unneeded property, and require airports to submit updated noise exposure maps when
noise levels decrease substantially.
                                                                             December                   �




Ineffective Actions to Reduce Operational Errors                                         December 15

FAA HAS NOT SHOWN A SENSE OF URGENCY                 in reducing operational errors, which occur when air

traffic controllers allow planes to get too close to each other

(mostly in midair). Operational errors increased by 51 per-

cent in the last 4 years, from 764 in Fiscal Year 1996 to 1,154

in FY 2000. While operational errors can pose a serious safe­

ty risk, the true extent of the safety risk remains unknown

because FAA does not determine the severity of each incident.

Furthermore, facilities with the most reported operational

errors over the past 5 fiscal years have shown little progress at

reducing operational errors. We attribute the lack of progress

to inadequate regional plans that were not based on facility

assessments and did not include specific actions to reduce

operational errors. FAA agreed to develop a method to determine the severity of each operational error,

complete national reviews of facilities with the most errors and require national approval of regional

operational error prevention plans.




Life Safety Needs in Penn Station Tunnels                                                December 18

WE UPDATED OUR REPORT CONCERNING               life-safety needs in the tunnels beneath Penn Station-New

York (PSNY) and the cost and schedule of the Penn

Station Redevelopment Project. PSNY is the busiest

railroad station in the United States, with 15 miles of

tunnels connecting PSNY to New Jersey and

Queens. More than 750 trains transport 500,000

passengers through the station each weekday. By the

end of 2001, more than $161 million will have been

spent on projects intended to improve the safety in

the tunnels. However, some of the more critical tun­

nel projects, such as installing adequate ventilation

fans, rehabilitating benchwalls to provide a stable (Emergency exit from Amtrak tunnels under the Hudson river.)
�        D e c e m b e r





walking surface, installing standpipes to carry water through the tunnels for firefighting purposes, and
installing wider “scissor” staircases at exit shafts need to be done.

The current cost to complete life-safety improvements by 2010 is $898 million, which would require
an annual average investment of $90 million (in FY 2002 dollars). In recent years, total investment has
averaged less than $30 million. If spending continues at this rate, needed improvements would not be
completed until 2030. Regardless of the instrument selected for funding these needs, the funds should
be earmarked for tunnel safety improvements to ensure that they are not diverted for other purposes.



FAA Secretary Fined for Filing

False Travel Claims                                                                December 18


A U.S. DISTRICT COURT JUDGE IN WASHINGTON, DC,                sentenced Debra Kelleher, an FAA employee,
to 3 years’ probation, 50 hours’ community service and ordered her to pay $12,792 in restitution.
Kelleher previously pleaded guilty to filing false travel claims with FAA while on an extended temporary
duty assignment to Washington, DC.


Sentencing in Motor Carrier Case                                                   December 20

ALAN ARCHIBALD, FORMER PRESIDENT OF            Aulenback, Inc., a trucking company in Mexico, ME,
was sentenced in U.S. District Court in Portland, ME, to 24 months’ probation and a $2,000 fine for
violating an operations Out-of-Service Order. Maine State Police stopped an Aulenback driver with an
interstate load from New Jersey after the FMCSA had shut the carrier down for failing a compliance
review. Subsequent interviews disclosed Aulenback had continued interstate operations in violation of
the Out of Service Order. Three other defendants, the trucking firm, its operations manager and dis­
patcher, were also convicted and sentenced on related charges.
                                                                               January              �




Former FHWA Contractor Employee Sentenced

for Theft of Government Property                                                         January 10


A U.S. DISTRICT COURT JUDGE IN ALEXANDRIA, VA,           sentenced Christopher M. Remaley, a former
contract employee at the FHWA’s Turner-Fairbanks Highway Research Center in McLean, VA, to 24
months’ incarceration, 24 months’ supervised release, and to pay $1,391 in restitution. Remaley plead­
ed guilty September 25 to stealing Government test vehicles and auto parts from the research center’s
laboratory and using a Government credit card for personal fuel purchases. As a result of OIG’s inves­
tigation, Remaley was removed from the FHWA contract and terminated by the contractor.



Aviation Company and Owners Sentenced                                                    January 11

CENTRAL CONNECTORS, INC., AND ITS OWNER,             Mauren Ledbetter, were sentenced in U.S. District
Court in Philadelphia, PA, for falsely certifying that electronic connectors they sold complied with
Federal Aviation Regulations. The defendants sold electrical connectors, for use on commercial aircraft,
to aviation customers who were falsely lead to believe that the parts were traceable to the original equip­
ment manufacturer as required under Federal Aviation Regulations. Parts that are not traceable to the
original equipment manufacturer can not be used on commercial aircraft. Central Connectors,
Ledbetter, and (on January 23) employee Thomas Winfough were sentenced to pay a total of $23,650
in fines and restitution, plus given terms of probation and home confinement. OIG investigated this
case with the DCIS and the FBI.



Household Goods Trucking Company Owner Jailed                                            January 19

LARRY CRAWFORD, OWNER OF J&L TRUCKING,             of Mission Hills, CA, was sentenced in U.S. District
Court in Oakland, CA, to 12 months’ incarceration and 3 years’ supervised release for theft of inter-
state shipments. Crawford, under the guise of transporting nearly $30,000 worth of property belong­
ing to U.S. Army personnel, illegally removed the property from a storage facility and demanded pay­
ment for its return. The interstate shipment, regulated by FMCSA, was under Government bill of lad­
ing for the U.S. Army. OIG investigated this case with the U.S. Army Criminal Investigative Division.
�        J a n u a r y





DOT’s Top Ten Management Challenges                                                     January 18

THE ANNUAL OIG LIST OF THE TOP MANAGEMENT               challenges facing DOT highlights progress and
needed actions in 10 broad areas. The report documented important progress in some areas, such as
Government Performance and Results Act (GPRA) implementation, and the need to resolve some out-
standing issues, such as the sharp increases and record highs in runway incursions and controller oper­
ational errors. The most significant change in the report was the inclusion of aviation capacity issues in
the Air Traffic Control Modernization area. The report now discusses the impact limited aviation
capacity is having on customer service due to increasing flight delays and cancellations. We also creat­
ed a comprehensive item on Departmental Business Practices by combining existing items on GPRA,
FAA financing, and financial accounting and by adding other Departmentwide concerns, including
human resources management and the pace of Departmental rulemakings. (For additional information,
see page 7.)



Closeout and Payment of

Cost-Reimbursable Contracts                                                             January 23


DOT AND ITS OPERATING ADMINISTRATIONS            were not properly administering closeout and payment
of cost-reimbursable contracts. For the 5-year period ended April 2000, DOT agencies closed 864 cost-
reimbursable contracts valued at about $559 million. Our review of 40 of these contracts (about $120
million) showed that contracts were improperly closed out for various reasons. Because DOT did not
close contracts in a timely manner, about $35 million remained obligated on completed contracts, some
for as long as 12 years. Furthermore, because contracting officers were not performing crucial reviews
and requesting independent audits, DOT had little assurance that contractors actually incurred $294
million on 448 contracts that were not subjected to independent audits and internal desk audits. We
excluded FAA from this audit, but will audit it separately because it uses a different acquisition system
from the rest of DOT. DOT agreed with all recommendations and provided a detailed action plan.
                                                 January              -   February               �




Owner of Trucking Firm Sentenced for

Falsifying Drug Testing Records                                                       January 31


JOSEPH FLUDER, OWNER OF GENESIS EXPRESS,               a Chicago-based interstate motor carrier was sen­
tenced in U.S. District Court in Chicago, IL, to 3 years’ probation and a $4,000 fine for falsifying
employee drug testing records. Fluder pleaded guilty on October 16, 2000, to charges of presenting
false drug and alcohol tests of his truck drivers to the DOT during 1996 and early 1997. Fluder pro­
vided false negative tests and fabricated doctors’ signatures to hide the fact that company drivers were
not tested.



Convicted Felon’s Probation

Revoked For Repeat Offense                                                             February 2


A U.S. DISTRICT COURT JUDGE IN DALLAS, TX,        sentenced James Franklin Howell to 10 months’ jail
and 36 months’ supervised release for violating the terms of his probation. In December 1999, as a
result of an OIG investigation, Howell was sentenced to 3 years’ probation for falsifying an FAA
Airman’s Certificate which allowed him to pilot private aircraft. Howell violated his probation in
January 2000 when he falsified another FAA document, an Application for Airman Medical Certificate.



Aviation Parts Manufacturer and

Owner Fined, Incarcerated                                                              February 2


THE U.S. DISTRICT COURT IN PHILADELPHIA, PA,              sentenced RHIMCO Industries, Inc., and its
owner, Dan Massey, to a term of probation and 10 months in halfway house/home confinement,
respectively, plus a total of $140,000 in criminal fines. RHIMCO and Massey supplied untested elec­
trical connectors, for use in commercial aircraft, to aviation customers. Federal Aviation Regulations
require that the connectors be safety tested before they were sold. Untested RHIMCO parts were
traced through purchase orders to several commercial aviation businesses. OIG investigated this case
with the FBI and the DCIS.
�       F e b r u a r y





Corporation Sentenced for Illegally Shipping Hazmat                                   February 2

IN U.S. DISTRICT COURT IN MIAMI, FL,      DIAMEX, USA, Inc., a New York-based corporation, pled
guilty and was sentenced for causing hazardous materials to be illegally transported by an air carrier.
The charges stem from an August 1998 incident in which an undeclared hazardous materials shipment
caused the evacuation of passengers onboard AeroMexico Flight 420 bound from Miami International
Airport to Mexico. The company was sentenced to 1 year of probation, a $10,000 fine, and to pay a
total of $81,901 to the Miami-Dade police and fire departments and AeroMexico.



Trucker Jailed for Illegal Transport of Cyanide                                       February 5

MARVIN HUTCHINSON WAS SENTENCED               in U.S. District Court in San Diego, CA, to 15 months’
imprisonment and a $4,000 fine for violating Federal transportation laws governing hazardous materials.
Hutchinson pleaded guilty in October to conspiring with Gary Rasmussen to transport hazardous waste
to an unpermitted site and illegal transportation of both acid and cyanide. The acids and cyanide, if
mixed together, can form a deadly toxic gas. Rasmussen was found guilty, after a 2-week jury trial, of
illegal transportation and storage of hazardous materials/waste. His sentencing was pending as of March
31. OIG investigated this case with the FBI, EPA/CID (the Environmental Protection Agency’s
Criminal Investigations Division), and the San Diego County Department of Environmental Health
Services.



Contractor Ordered to Pay Damages

Under False Claims Act                                                                February 6


A U.S. DISTRICT COURT JUDGE IN WASHINGTON, D.C.,           ordered TDC Management Corporation
(TDC), and its president, T. Conrad Monts, to pay $1,285,198 in damages for violating the False
Claims Act. TDC was hired by FTA to develop a program to assist disadvantaged business enterprises
in securing bonds for FTA-assisted contracts. TDC and Monts misrepresented its progress in imple­
menting the bonding program in monthly progress reports to FTA. The court found that information
omitted from the monthly progress reports led FTA to conclude that the program was making progress
when in fact it was not.
                                                                            February                �




Truck Driver Sentenced to 3-Year Prison Term                                              February 8

MARX M. GAUTHIER WAS SENTENCED              to a 3-year prison term by a Georgia Superior Court judge in
Clarksville, GA, after pleading guilty the same day to first degree homicide by vehicle, failure to keep
drugs in their original container, and possession of marijuana. Gauthier was also ordered to serve 4
years’ probation, pay a $2,500 fine, and to turn in his CDL. Gauthier’s conviction and sentence
occurred as a result of a fatal motor carrier accident in Habersham County, GA. OIG’s investigation
disclosed that Gauthier falsified his driver’s daily logbook to hide the number of hours he had driven
and failed to take rest and sleep breaks as required under Federal Motor Carrier Safety Regulations.
OIG investigated this case with the Baldwin, GA Police Department and the Georgia Public Service
Commission, with assistance from FMCSA.



Airline Customer Service Commitment                                                     February 12

AIRLINE CUSTOMER SERVICE TOOK CENTER STAGE          in January 1999, when hundreds of passengers
were stuck in planes on snowbound Detroit runways for up to 8 hours.


Following that incident, both the House and Senate conducted
hearings on the air carriers’ treatment of air travelers and consid­
ered whether to enact a “passenger bill of rights.” Following the
hearings, Congress, DOT and the Air Transport Association agreed
that the air carriers should have an opportunity to improve their
customer service without legislation and in 1999, ATA and its
member airlines executed the Airline Customer Service
Commitment. Each airline agreed to develop and implement a
Customer Service Plan by December 1999 for meeting its obligations under the Commitment.


  Our report found that overall the airlines are making progress toward meeting their Commitment.
Though the Commitment has been a plus for air travelers on a number of fronts, significant shortfalls con­
tinue to exist in reliability and timely communication with passengers concerning flight delays and cancel­
lations. More importantly, provisions within the Commitment do not directly address the root causes of
�        F e b r u a r y





customer dissatisfaction: extensive flight delays, flight cancellations, and lost baggage. We recommended
measures for improving accountability, enforcement, and the consumer protections afforded commercial
air passengers. (For additional information see page 14.)



Florida Men Sentenced for

HazMat and Credit Card Fraud                                                           February 15


IVAN PEREZ WAS SENTENCED BY AN U.S. DISTRICT COURT judge                in Miami, FL to 6 months’ home
confinement with electronic monitoring followed by 12 months of supervised release. Perez pleaded
guilty the same day to illegally transporting diesel fuel and using an American Express credit card fraud­
ulently encoded with a Visa account number in order to purchase fuel from vendors. A co-conspirator,
Manuel Torres, was sentenced by a U.S. District Court judge in Miami on December 14, 2000, to 6
months in prison and 12 months supervised release after pleading guilty to illegally transporting and
selling diesel fuel from the back of a van he owned. OIG investigated this case with the Florida DOT
and the U.S. Secret Service.



Actuarial Estimates for USCG

Retired Pay/Medical Benefits                                                           February 23


AS PART OF OUR AUDIT OF THE FY 2000           DOT Consolidated Financial Statements, we contracted
with the Hay Group to review USCG’s actuarial model for estimating liabilities for retired pay and med­
ical benefits. The review found that the Coast Guard properly reported military retirement liabilities of
$19.8 billion.



DOT Web Privacy                                                                       February 26

AS REQUIRED BY THE FY 2001         Consolidated Appropriations Act, we reviewed DOT’s collection and
use of information identifying individuals who visit DOT web sites or web sites maintained for DOT by
contractors. In December 2000 and January 2001, DOT had examined its web privacy protection and
eliminated more than 80 unauthorized uses of persistent cookies (one of the principal technologies used
                                                                            February               �




to    collect information from web visitors).

Notwithstanding, OIG and GAO subsequently identified

unauthorized use of 23 persistent cookies. While not

intentionally designed to collect personally identifiable

information from web visitors, these persistent cookies

were placed on web visitors’ machines and presented a

privacy violation. On February 20, 2001, the use of

unauthorized persistent cookies was either eliminated or the associated web sites disabled. We found

no privacy concerns with web sites managed by DOT contractors. The DOT Deputy Chief Information

Officer agreed with the report recommendations and will take corrective actions.




Fiscal Year 2000 Highway Trust Fund

Financial Statements                                                                  February 27


THE HIGHWAY TRUST FUND BALANCE SHEET,             statement of net cost, statement of changes in net posi­
tion, statement of budgetary resources, and statement of financing for the year ended September 30,
2000, were fairly presented in all material respects in conformance with generally accepted accounting
principles. Accordingly, the Highway Trust Fund received an unqualified or “clean” audit opinion on
its FY 2000 Financial Statements, which accounted for about $27 billion in funds.



FAA’s Cost Accounting System

and Practices Assessed                                                                 February 28


AS REQUIRED BY AIR-21, WE ISSUED our first annual assessment of FAA’s cost accounting system and

data. We found that FAA has made progress in developing its

cost accounting system and its methods of calculating total costs

are reasonable. Notwithstanding those accomplishments, the

cost accounting system is 4 years behind the original schedule and

the current estimated cost is nearly three times the original esti­

mate. FAA cannot determine the actual labor cost for its activi­

ties, services, and projects and the cost accounting system does

�        February               -   M a r c h





not properly collect overhead costs for facilities and equipment projects. FAA agreed with our recom­
mendations to establish implementation of its cost accounting and labor distribution systems as a top pri­
ority, to review its cost accounting system for more efficient methods, and to have both systems fully
operational by September 2002.



Fiscal Year 2000 FAA Financial Statements                                                   March 1

FAA RECEIVED A QUALIFIED OPINION ON THE            FY 2000 Financial Statements because of concerns
with depreciation expense ($751 million) and the net book value of its property, plant, and equipment
($11.5 billion). Although FAA had received an unqualified opinion on its FY 1999 Financial
Statements, we had reported a material internal control weakness with its $17 billion property account.
During FY 2000, FAA tried but was unsuccessful in implementing an integrated property system.
While converting to a new property system, FAA allowed nonfinancial personnel to perform the con-
version without establishing adequate controls over changes made to financial data. Material changes
were made during the conversion, which, among other things, increased real property items from
14,000 to 18,000 and increased the net book value of property by $158 million. Converting data from
one system to another should not have resulted in any changes to recorded balances. FAA agreed to
develop an action plan to resolve the property issues during FY 2001.



Fiscal Year 2000 Consolidated Financial Statements                                           March 1

DOT RECEIVED A QUALIFIED OPINION ON          the FY 2000 Consolidated Financial Statements because of
concerns with the net book value of FAA property, plant, and equipment ($11.5 billion of the $16.2
billion total for DOT). Except for the net book value of property, the DOT consolidated balance sheet,
statement of net cost, statement of changes in net position, statement of budgetary resources, and state­
ment of financing for the year ended September 30, 2000, were fairly presented in all material respects
in conformance with generally accepted accounting principles. We also identified four additional areas
involving weaknesses in internal controls and compliance with laws and regulations. These areas con­
cerned computer security of financial systems, performance measures, distribution of cost, and compli­
ance with the Federal Financial Management Improvement Act of 1996. The DOT Chief Financial
Officer agreed with the report and promised that specific action plans would be developed to resolve
the property issues at FAA.
                                                                                   March            �




Airport Employee Convicted for

Security - Related Violations                                                               March 12


RUBEN RICARDO SANTANA,          a cargo handler at the Miami International Airport, pleaded guilty in
U.S. District Court in Miami, FL, to FAA security violations and theft of mail. Santana used his secu­
rity ID badge to access secure areas of the airport and steal military express, international, and priority
mail articles from Lufthansa Airlines’ cargo facility. OIG investigated this case with the Miami-Dade
Police Department and the U.S. Postal Inspection Service.



Overcharge Case Results in

$10.5 Million Settlement                                                                    March 13


THIS INVESTIGATION WAS INITIATED BASED UPON               a Defense Contract Audit Agency (DCAA)
Suspected Irregularity Referral indicating that from 1985 to 1988 IBM overcharged FAA in leasing
costs under its Advanced Automation System contract with FAA. The investigation disclosed IBM’s
Federal Systems Division overvalued four office buildings located in the Shady Grove area of Rockville,
MD. As a result of the investigation, FAA, with the concurrence of the Department of Justice, pursued
administrative recovery of the overcharges from Lockheed-Martin (which acquired IBM’s Federal
Systems Division). Subsequently, Lockheed-Martin agreed to credit FAA with $10.5 million, to be off-
set through future billings.



Efforts to Develop and Deploy the

Standard Terminal Automation Replacement System                                            March 14


THE INSPECTOR GENERAL TESTIFIED BEFORE THE           Aviation Subcommittee of the House Committee
on Transportation and Infrastructure on the Standard Terminal Automation Replacement System
(STARS) program, which will provide air traffic controllers with color displays, processors, and new
computer software. Since 1996, the total program cost has increased from $940 million to $1.4 billion,
and the planned delivery of the last FAA operational site has slipped by almost 4 years, from February
2005 to September 2008. In addition, FAA has an aggressive deployment schedule that will likely result
in further cost and schedule overruns. We recommended that FAA revise its deployment strategy by:
�        M a r c h





(1) establishing milestone dates and quantifying all costs associat­
ed with delivery, installation, and testing of STARS; (2) complet­
ing a training strategy for over 11,000 air traffic controllers and
maintenance technicians; and (3) evaluating whether additional
Common Automated Radar Terminal Systems with displays will
be needed to support FAA’s terminal automation needs, and, if so,
quantifying all associated costs.



Flight Delays and Cancellations                                                             March 15

IN TESTIMONY BEFORE THE TRANSPORTATION                and Related Agencies Subcommittee of the House
Appropriations Committee, the Inspector General discussed the increasing number of flight delays and
cancellations, and growing consumer dissatisfaction with air travel. The Inspector General recommend­
ed a number of immediate actions for DOT, FAA, airlines, and airports to help alleviate the delay prob­
lem. These included: (1) establishing a uniform system for tracking delays and cancellations and their
causes; (2) finalizing and issuing capacity benchmarks for the top 30 airports; (3) disclosing flight delay
and cancellation performance for flights consistently delayed or canceled at least 40 percent of the time;
(4) revising airline schedules; (5) exploring the acceleration of the development and implementation of
the Local Area Augmentation System (satellite navigation at airports); (6) completing the remaining
action items to reduce delays associated with “airspace choke points”; and (7) establishing consistent
milestones for the completion of new runway projects and ensuring they are met. (For additional infor­
mation see page 14.)



Amtrak’s Financial Performance and Requirements                                             March 21

IN TESTIMONY BEFORE THE TRANSPORTATION                 and Related Agencies Subcommittee of the House
Appropriations Committee, the Inspector General stated that Amtrak’s financial results have not
improved significantly, falling short of its business plan goals by about $120 million in 2000. While
revenue and ridership have shown continued growth, Amtrak has not been able to significantly curb
expenses. Amtrak needs to quickly close the gap in its business plan if it hopes to achieve operating
self-sufficiency by 2003. To do so, Amtrak must (1) fully implement high-speed rail in the Northeast
Corridor, (2) maximize its mail and express business, and (3) significantly curb expense growth. In
addition, Amtrak will continue to require capital funds for the foreseeable future. (CC-2001-135)
                                                                                   March            �




Woman Pleads Guilty to Fraudulent

Airport Identification                                                                      March 30


MARIA LOUISA MILANES PLEADED GUILTY          in U.S. District Court in Miami, FL, to providing a false
identity to fraudulently obtain employment and an airport identification badge at Miami International
Airport (MIA). Milanes also pleaded guilty to illegal immigration charges. The investigation predicat­
ed on information that Milanes, a Mexican national in the United States illegally, was employed by the
Miami International Airport Hotel as a housekeeping supervisor under a fictitious name.


Investigation disclosed Milanes was in possession of a false Alien Registration Card and used the card
to obtain employment at MIA as well as to gain access to secure areas of the airport via a Secure
Identification Display Area badge. Milanes provided the false information in order to conceal the fact
she had previously been deported from the United States. OIG investigated this case with the U.S.
Immigration and Naturalization Service.



Illinois CDL Probe Continues

THE INVESTIGATION OF THE ILLEGAL SALE        of CDLs by employees of the Illinois Secretary of State’s
Office continued during the reporting period, with two indictments, six convictions and nine sentenc­
ings between October 1, 2000, and March 31, 2001.


Operation Safe Road is a bribery and public corruption probe being conducted by OIG, the FBI, the
Postal Inspection Service, the Internal Revenue Service and the Illinois State Police. Since the investiga­
tion of the illegal sale of CDLs by state employees to unqualified individuals began in October 1998,
local, state and Federal officials have obtained evidence that at least 2,750 CDLs have been illegally
issued. As of March 31, 2001, the investigation has resulted in the indictment of 40 people and the con­
viction of 37 individuals.


Judicial actions occurring during the reporting period include the October 26 conviction of a former
driving school operator on charges of repeatedly bribing examiners at a Secretary of State’s facility on
Chicago’s West Side. Bharat Patel, former operator of the now-defunct New Delhi Driving School was
subsequently sentenced to 37 months’ incarceration, fined $15,000 and was barred from association
with any driving school for 3 years after his release from prison.
 COMPLETED AUDITS OCTOBER 1, 2000 – MARCH 31, 2001
 (Dollars in Thousands)

                                                                                                                                             Estimated Amounts *

                  Type of Review                           Number of    Number of    Questioned                           Unsupported          Funds to be Put
                                                            Reports  Recommendations   Costs                                 Costs              to Better Use
 Internal Audits:
 Program/Functional                                             19                     45                 $62,328                 $0                 $299,000
 Chief Financial Officer
 Financial Statements                                            3                      2                      $0                 $0                   $8,700
 Other Reports                                                   2                      3                      $0                 $0                       $0
          TOTAL INTERNAL AUDITS                                 24                     50                 $62,328                 $0                 $307,700
 Grant Audits:
 Audits of Grantee Under
 Single Audit Act                                               23                     48                 $2,023                  $0                    $0
           TOTAL GRANT AUDITS                                   23                     48                 $2,023                  $0                    $0
                 TOTALS                                         47                     98               $64,351                   $0              $307,700
 - The dollars shown are the amounts reported to management.  The actual amounts may change during final resolution.
 Department of Transportation programs and operations are primarily carried out by the Department’s own personnel and recipients of Federal grants.  Audits by
 DOT’s Office of Inspector General, as a result, fall into 2 categories: internal audits of Departmental programs and operations, and audits of grant recipients. The
 table above shows OIG’s results in the 2 categories for the 6 months covered by this report.




 M A N A G E M E N T   D E C I S I O N S   R E G A R D I N G   A U D I T   R E C O M M E N D AT I O N S

 (Dollars in Thousands)

                         Description                              Number of             Number of                 Questioned and                 Funds to be Put
                                                                   Reports           Recommendations             Unsupported Costs                to Better Use
 Unresolved as of 10/01/00                                           25                    69                            $427                        $137,702
 Audits with Findings During Current Period                          31                    98                         $64,351                        $307,700
               TOTAL TO BE RESOLVED                                  56                   167                         $64,778                        $445,402
 Management Decisions:
 A.  Audits Prior Period                                                19 **                    48                         $336                     $136,000
 B.  Audits Current Period                                              10 **                    39                       $62,365                    $259,700
                   TOTAL RESOLVED                                       29                       87                       $62,701                    $395,700
 Unresolved as of 3/31/01 *                                             33                       80                        $2,078                     $49,702
 Aging of Unresolved Audits:
   Less than 6 mos. old                                                22                       59                        $1,986                      $48,000
   6 mos. – 1 year                                                      4                        6                            $0                           $0
   1 year – 18 mos.                                                     4                        6                           $92                           $0
   18 mos. – 2 years                                                    1                        2                            $0                           $0
   Over 2 years old                                                     2                        7                            $0                       $1,702
                     TOTALS                                            33                       80                       $2,078                      $49,702
 * - Considered unresolved if management decisions have not been made on all report recommendations.
 ** - Includes some reports and recommendations where costs were both allowed and disallowed.




48
                 AUDIT REPORTS WITH RECOMMENDATIONS THAT QUESTIONED COSTS
                                                                                          (Dollars in Thousands)

                                                                         Number of                Number of         Questioned
                                                                          Reports              Recommendations        Costs*

A.  For which no management decision had                                          4                    5               $427
    been made by the start of the reporting period

B.  Which were issued during the reporting period                             15                      15             $64,351

                   TOTALS (A+B)                                               19                      20             $64,778

C.  For which a management decision was made                                      5                    5             $62,700
    during  the reporting period

  (i)  dollar value of disallowed costs                                           5  **                5  ***        $62,671

  (ii)  dollar value of costs not disallowed                                      1  **                1  ***           $30

D.  For which no management decision had been                                 14                      15              $2,078
    made by the end of the reporting period


* - There were no recommendations with unsupported costs.

** - Includes reports in which costs were both allowed and disallowed.

*** - Includes recommendations in which costs were both allowed and disallowed.





AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                          (Dollars in Thousands)

                                                                                      Number of      Number of          Dollar
                                                                                       Reports    Recommendations       Value

A. For which no management decision had been made by the start of the                      3               3           $137,702
   reporting period

B. Which were issued during the reporting period                                           3               4           $307,700

                   TOTALS (A+B)                                                            6               7           $445,402

C.  For which a management decision was made during the reporting period                   4               5           $395,700

    (i)  dollar value of  recommendations that were agreed to by management                3               4           $319,700

    (ii)  dollar value of recommendations that were not agreed to by management            1               1            $76,000

D. For which no management decision had been made by the end of the                        2               2            $49,702
   reporting period




                                                                                                                                  49
 AUDIT REPORTS RECOMMENDING CHANGES 

 F O R   S A F E T Y,   E C O N O M Y   O R   E F F I C I E N C Y

                                                                                            Number of          Number of
                                                                                             Reports        Recommendations

 A.  For which no management decision had been made by the start of the reporting period        22                   61

 B. Which were issued during the reporting period                                               26                   79

                   TOTALS (A+B)                                                                 48                  140

 C.  For which a management decision was made during the reporting period                       27                   77

 D.  For which no management decision had been made by the end of the reporting period          26                   63




 S TAT U S   O F   U N R E S O LV E D   A U D I T   R E C O M M E N D AT I O N S

 OVER 6 MONTHS OLD

            CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1998 – MARCH 31, 1999

 Deployment of Explosives Detection Systems        AV-1999-001   10/05/98    Working with FAA to resolve all open issues
 Motor Carrier Safety Program for Commercial       TR-1999-034   12/28/98    Working with FMCSA to resolve all open issues
 Trucks at U.S. Borders


           CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1999 – SEPTEMBER 30, 1999

 Motor Carrier Safety Program                      TR-1999-091   04/26/99    Working with FMCSA to resolve all open issues


            CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1999 – MARCH 31, 2000

 ATA Foundation Affiliates                         QC-2000-006   10/25/99    Working with FHWA to resolve all open issues
 Cost Allocations by the Transportation            MA-2000-015   11/05/99    Working with TASC to resolve all open issues
 Administrative Service Center
 Airport Access Control                            AV-2000-017   11/18/99    Working with FAA to resolve all open issues
 City of New York, NY                              QC-2000-027   12/21/99    Working with FHWA to resolve all open issues


           CITED IN SEMIANNUAL REPORT FOR APRIL 1, 2000 – SEPTEMBER 30, 2000

 Contract Towers: Observations on FAA’s Study      AV-2000-079   04/12/00    FAA has not issued the final version of the study
 of Expanding the Program
 Survey of the Federal Aviation Administration’s   AV-2000-110   08/29/00    Working with FAA to resolve all open issues
 Integrated Product Development System
 Flight Delays and Cancellations                   CR-2000-122   09/25/00    Working with DOT and FAA to resolve all open issues
 2000 Assessment of Amtrak’s Financial             CR-2000-121   09/19/00    Working with Amtrak to resolve all open issues
 Performance and Requirements                                                 related to capital spending



50

                     OFFICE OF INSPECTOR GENERAL AUDIT REPORTS

                                                      October 1, 2000 - March 31, 2001


F E D E R A L   AV I AT I O N   A D M I N I S T R AT I O N 

Internal Audits: Program/Functional – 6 reports


   Report       Date                              Title                                 Focus of Report/
                                                                                       Recommendations:

AV-2001-003   10/11/2000   Oversight of Manufacturers’ Quality Assurance   Implement effective quality assurance
                            Systems for Threaded Fasteners                   systems

AV-2001-010   12/07/2000   Controls Over Airport Identification Media      Strengthen oversight of identification media

AV-2001-012   12/14/2000   Airport Noise Compatibility Program             $48,000,000 better use; $328,000 questioned

AV-2001-011   12/15/2000   Actions to Reduce Operational Errors and        Improve national oversight to reduce
                            Deviations Have Not Been Effective              operational errors

FI-2001-013   12/18/2000   Design of the Cost Accounting System for        $251,000,000 better use
                            Research and Acquisitions

FI-2001-023   02/28/2001   Status Assessment of FAA’s Cost Accounting      Cost accounting system status
                            System and Practices



Internal Audits: Financial Statements – 1 report

FI-2001-036   03/01/2001   FY 2000 Financial Statements                    $8,700,000 better use



Internal Audits: Other Reports – 2 reports

AV-2001-004   10/27/2000   Observations on Efforts to Address Concerns     Improve safety of non-structural
                            About Aircraft Wiring                           aircraft systems

AV-2001-048   03/30/2001   Efforts to Develop and Deploy the Standard      Further cost and schedule
                            Terminal Automation Replacement System          overruns likely



Grant Audits – Post Award – 7 reports

QC-2001-008   11/27/2000   City of Philadelphia, PA                        Improve grantee oversight

QC-2001-022   02/14/2001   Castle Joint Powers Authority, CA               $334,000 questioned

QC-2001-029   02/22/2001   Port of Oakland, CA                             $400,000 questioned

QC-2001-032   02/22/2001   Erie Municipal Airport Authority, PA            Improve grantee oversight

QC-2001-031   02/22/2001   Miami-Dade County Aviation Department, FL       $109,500 questioned

QC-2001-041   03/08/2001   Texarkana Airport Authority, AR                 $67,902 questioned

QC-2001-042   03/08/2001   Beaverhead County, MT                           Improve grantee oversight


                                                                                                                     51
 OFFICE OF INSPECTOR GENERAL AUDIT REPORTS

 October 1, 2000 - March 31, 2001


 U N I T E D   S TAT E S   C O A S T   G U A R D 

 Internal Audits: Program/Functional – 1 report


     Report       Date                            Title                                    Focus of Report/
                                                                                          Recommendations:

 FI-2001-033   02/23/2001   Actuarial Estimates for Retired Pay and           Military retirement liabilities properly 
                             Medical Benefits                                  reported


 F E D E R A L   H I G H W AY   A D M I N I S T R AT I O N 

 Internal Audits: Program/Functional – 2 reports


 IN-2001-007   11/13/2000   Follow Up Review of the Interstate 15             Cost estimates reasonable; funding 
                             Reconstruction Project in Utah                    available

 IN-2001-009   11/29/2000   October 2000 Finance Plan for the                 Finance plan consistent and
                             Central Artery/Tunnel Project,                    reasonable; estimated project cost 
                             Boston, Massachusetts                             of $14.075 billion


 Internal Audits: Financial Statements – 1 report

 FI-2001-035   02/27/2001   FY 2000 Financial Statements                      Unqualified opinion on financial statements


 Grant Audits – Post Award – 7 reports

 QC-2001-002   10/10/2000   State of Washington                               $36,575 questioned

 QC-2001-045   11/16/2000   District of Columbia Department of Public Works   Improve grantee oversight

 QC-2001-016   01/16/2001   Puerto Rico Department of Highway and             Improve grantee oversight
                            Transportation Authority

 QC-2001-026   02/16/2001   City of Rocky Mount, NC                           $19,130 questioned

 QC-2001-030   02/22/2001   City of Birmingham, AL                            Improve grantee oversight

 QC-2001-046   03/28/2001   Arkansas State Highway and                        Improve grantee oversight
                             Transportation Department

 QC-2001-047   03/29/2001   Barton County, MO                                 $28,083 questioned


 S A I N T   L A W R E N C E   S E A W AY   D E V E L O P M E N T   C O R P O R AT I O N
 Internal Audits: Program/Functional – 1 report

     Report       Date                            Title                                    Focus of Report/
                                                                                          Recommendations:

 QC-2001-021   02/07/2001   Quality Control Review of FY 2000 Audited         Unqualified opinion on financial statements
                             Financial Statements




52
                     OFFICE OF INSPECTOR GENERAL AUDIT REPORTS

                                                      October 1, 2000 - March 31, 2001

F E D E R A L   T R A N S I T   A D M I N I S T R AT I O N
Grant Audits – Post Award – 9 reports

   Report        Date                              Title                                         Focus of Report/
                                                                                                Recommendations:

QC-2001-014   12/22/2000   City of Tulsa, OK                                       Improve grantee oversight

QC-2001-015   12/22/2000   Sacramento Regional Transit Authority, CA               Improve grantee oversight

QC-2001-025   02/16/2001   Greater Peoria Mass Transit District, IL                $597,783 questioned

QC-2001-027   02/16/2001   Gary Public Transportation Corporation, IN              $51,575 questioned

QC-2001-028   02/16/2001   City of Galveston, TX                                   Improve grantee oversight

QC-2001-039   03/02/2001   City of Cheyenne, WY                                    $14,797 questioned

QC-2001-040   03/02/2001   Greenfield Montague Transportation Area, MA             $24,134 questioned

QC-2001-043   03/08/2001   Calstart, Inc.                                          $133,332 questioned

QC-2001-044   03/08/2001   Worcester Regional Transit Authority, MA                $205,758 questioned


O F F I C E   O F   T H E   S E C R E TA RY   O F   T R A N S P O RTAT I O N
Internal Audits: Program/Functional – 9 reports

FI-2001-001   10/03/2000   Third Party Draft Payment System                      Checks adequately supported

FI-2001-006   11/03/2000   Privacy Concerns for Web Visitors                     Correct inappropriate collection of
                                                                                  information from and about Web visitors

FI-2001-005   11/09/2000   Interim Report on Travel Policies and Practices of    No violations of the Hatch Act found
                            Political Appointees

PT-2001-017   01/18/2001   Top Ten Management Issues                             DOT management challenges

FI-2001-018   01/23/2001   Closeout and Payment Processes for                    $62,000,000 questioned
                            Cost-Reimbursable Contracts

FI-2001-019   01/25/2001   Follow Up on Privacy Concerns for Web Visitors        Improve Web privacy protections

AV-2001-020   02/12/2001   Final Report on Airline Customer Service              Airlines commitment to improve 
                            Commitment                                            customer service

FI-2001-024   02/16/2001   Final Report on Travel Policies and Practices of      No violations of the Hatch Act found
                            Former Political Appointees

FI-2001-034   02/26/2001   Web Privacy                                           Re-certify Web privacy protections 


Internal Audits: Financial Statements – 1 report

FI-2001-037   03/01/2001   FY 2000 Consolidated Financial Statements             Qualified opinion due to material internal control
                                                                                  weaknesses at FAA


                                                                                                                                 53
 OFFICE OF INSPECTOR GENERAL CONGRESSIONAL TESTIMONIES

 October 1, 2000 - March 31, 2001

 F E D E R A L   AV I AT I O N   A D M I N I S T R AT I O N

     Control No.     Date                            Subject                                             Before

 CC-2000-380       10/05/2000   Observations on FAA and Industry Efforts to Address    Committee on Transportation and 
                                Concerns about Aircraft Wiring                          Infrastructure, Subcommittee on Oversight, 
                                                                                        Investigations, and Emergency Management,
                                                                                        U.S. House of Representatives.

 CC-2001-127       03/14/2001   Federal Aviation Administration Efforts to Develop     Committee on Transportation and 
                                and Deploy the Standard Terminal Automation             Infrastructure, Subcommittee on Aviation,
                                Replacement System                                      U.S. House of Representatives.

 CC-2001-118       03/15/2001   Flight Delays and Cancellations                        Committee on Appropriations,
                                                                                        Subcommittee on Transportation and
                                                                                        Related Agencies, U.S. House of
                                                                                        Representatives.


 AMTRAK


 CC-2001-135       03/21/2001   Amtrak's Financial Performance and Requirements        Committee on Appropriations,
                                                                                        Subcommittee on Transportation and
                                                                                        Related Agencies, U.S. House of
                                                                                        Representatives.


 O F F I C E   O F   S E C R E TA RY   O F   T R A N S P O RTAT I O N 


 CC-2001-090       02/13/2001   Airline Customer Service Commitment                    Committee on Commerce, Science, and
                                                                                        Transportation, U.S. Senate.

 CC-2001-089       02/14/2001   Management Oversight Issues                            Committee on Appropriations, Subcommittee
                                                                                        on Transportation, U.S. Senate.

 CC-2001-112       03/08/2001   Management Oversight Issues                            Committee on Appropriations, Subcommittee 
                                                                                        on Transportation and Related Agencies,
                                                                                        U.S. House of Representatives.




54
                                    Application of Audit Resources
                                    By Operating Administration,
                                    October 1, 2000 — March 31, 2001
                                                             FTA
                                                    FRA       3%
                                          FMCSA      4%
                                            4%                                 RSPA
                                                                                1%
                                          NHTSA
                                           4%


                                                                         FAA
                                                                         30%
                                                   FHWA
                                                    13%



                                                      USCG
                                                       15%         OST
                                                                   26%




Note:  Resources shown for OST include time spent performing the financial statement audit of DOT,
which  includes  all  OAs,  and  the  Final  Report  on  the  Airline  Customer  Service  Commitment.  Time
expended on BTS, MARAD, and SLSDC was less than 1 percent.




 The  Inspector  General  Act  requires  explanations  of                The  Inspector  General  Act  requires  this  report  to
 reasons  for  significant  revisions  to  management  deci­             describe any significant management decisions with
 sions made during the reporting period. OIG follows                     which  the  OIG  disagrees.  At  the  close  of  this
 up  on  audits  reported  in  earlier  semiannual  reports.             reporting period, there were no significant manage­
 During this reporting period, there were no significant                 ment decisions with which OIG disagreed.
 revisions  of  Departmental  management  decisions
 reported to OIG.




                                                                                                                                    55
 P R O F I L E   O F   P E N D I N G   I N V E S T I G AT I O N S
 October 1, 2000 - March 31, 2001

                                                                                               TYPES OF CASES
                                             Number           Contract/       Employee         Aviation  Motor Carrier  HazMat                          Other*
      Operating Administration               of Cases          Grant           Integrity        Safety      Safety
                                                               Fraud
 U.S. Coast Guard                                  48             10               10                5                0                    14              9
 Federal Aviation Administration                 184              18               30                66               0                    14              56
 Federal Highway Administration                  110              66               5                 0                0                    0               29
 Federal Railroad Administration                    6              3               0                 0                0                    3               0
 Federal Transit Administration                    20             19               0                 0                0                    0               1
 Maritime Administration                            5              2               0                 0                0                    0               3
 Federal Motor Carrier Safety                      82              0               0                 0                54                   25              13
  Administration
 Office of the Secretary                           11              3               4                 0                0                    0               4
 Research and Special Programs                     20              2               0                 0                0                    17              1
  Administration
 National Highway Traffic Safety                   14              0               6                 0                0                    0               8
  Administration
 Other Agencies                                     5              2               0                 0                0                    0               3
                         TOTALS:                505               125             55              71                54                   73              127
                  Percent of Total             100%               25%            11%             14%               11%                  14%              25%
 *Includes, for this reporting period, categories such as bribery/gratuities, motor fuel excise tax evasion and graft.


  Application of Investigative Resources                                                Investigative Resource Allocation by
  By Operating Administration,                                                          Priority Area, 2000-2001
  October 1, 2000 — March 31, 2001

                    RSPA                                                                   FY 2000
                     2%                                   Other                                                 22%                      37%
                                                           1%
                               USCG
                                8%
                                              FAA                                                                                                 14%
          NHTSA       OST                     26%                                                                  14%            12%
            1%        11%

      MARAD
       1%

        FTA
         4%                                                                                FY 2001*
                            FMCSA           FHWA                                                                28%                      29%
         FRA                 18%             27%
          1%

                                                                                                             11%                           14%
                                                                                                                            17%




                                                                                                          Contract/               Motor Carrier         All
                                                                                                          Grant Fraud             Safety                Other
                                                                                                          Aviation
                                                                                                          Safety/Security         HazMat


                                                                                          *Through March 31, 2001.
                                                                                           Numbers do not total 100% due to rounding

56
THE  6  MONTHS  COVERED  BY  THIS  REPORT                               Administrative Actions Taken
                                                                       October 1, 2000 - March 31, 2001
OPENED WITH A PENDING CASELOAD OF 502.
During  the  period, 137 cases were opened and          Employee Suspensions                       5

134  were  closed,  leaving  a  pending  caseload  of   Employee Terminations                      5
505.  During the period, 119 cases were referred        Resignations/Retirements                   5
for prosecution, 94 cases were accepted for pros­
                                                        Employee Restitution                       7
ecution,  while  52  cases  were  declined.  As  of
                                                        Debarments/Suspensions                   17
March 31, 2001, 73 cases were pending before
prosecutors.                                            Other corrective action                    2

                                                        Licenses suspended/revoked
                                                          or other corrective action             162




                                                         OIG investigations  in  this  reporting  period
                                                        spurred $84,243,185 in recoveries including fines,
                                                        restitution, civil judgments or settlements, and fed­
                                                        eral and state recoveries.  Federal recoveries go to
                                                        the U.S. Treasury.  State recoveries are retained by
                                                        the states.



                                                                           Judicial Actions Taken

                                                                       October 1, 2000 - March 31, 2001


                                                        Indictments:                       90

                                                        Convictions:                       65

                                                        Years Sentenced:                   71

                                                        Years Probation:                   186

                                                        Years Supervised Release:          55

                                                        Hours of Community Service:        8,548

                                                        Fines:                             $19,085,270

                                                        Restitutions/Civil judgements:     $10,206,681

                                                        Federal Recoveries:                $48,947,429

                                                        State recoveries:                  $6,003,805

                                                        Total:                             $84,243,185




                                                                                                            57
                        DOT/OIG                  Awards




 E A C H   Y E A R , T H E   I N S P E C T O R   G E N E R A L   H O L D S   A   C E R E M O N Y   to recognize employees
 and teams who have excelled in their respective fields.  Through their talent and dedication to the task at
 hand, OIG was able to provide valuable Congressional testimony, uncover criminal activity, and provide
 many critical recommendations to improve program effectiveness impacting the safety of the traveling
 public and the integrity of the Department of Transportation.

  The 2000 Awards Ceremony was held November 18, 2000 at DOT Headquarters in Washington, DC.
 Several OIG employees and teams received awards at a separate ceremony from the Secretary of
 Transportation for their accomplishments.

                                     S E C R E TA R I A L   AWA R D S
            A I R L I N E   C U S T O M E R   S E RV I C E   C O M M I T M E N T   A U D I T   T E A M

 For outstanding performance, dedication, and contribution to the major Congressional, Departmental, and public
 transportation issue of improvement in airline customer service. The following OIG employees served on this team:

 Robin K. Hunt
                           Paul M. Streit
                          James M. Nelson


 Lester D. Girdlestone
                   Sharon R. Trodden
                       Patrick D. Nemons 


 Anne V. Longtin
                         David W. Brown
                          Nelda Z. Smith 


 Scott K. Macey
                          Gloria J. Echols
                        Lisa H. Stone


 Petra Rose 
                             Carlton H. Hamilton
                     James K. Wahleithner


 Donald E. Emery
                         Todd O. Kath
                            Susan M. Zimmerman 


 M. J. Mortensen 
                        Deborah A. Kloppenburg
                  Joyce K. Mayeda


 Adrienne M. Simms 
                      Pavel P. Nagulko



 FEDERAL TASK FORCE ON THE BOSTON CENTRAL ARTERY/TUNNEL PROJECT

 For creativity and innovation in performing an outstanding comprehensive review of the most expensive and
 complex project in the history of the Interstate Highway Program. The Federal Highway Administration spon­
 sored this team. The following OIG employee served on this team:

                                                 Michael D. Gulledge
58
                         A WA R D   FOR MERITORIOUS ACHIEVEMENT
For outstanding performance in the criminal investigations and convictions of two air carriers for obstruction
of justice and undermining of investigations being conducted by the Federal Aviation Administration and
the National Transportation Safety Board: 


                                          Carlos  A.  Vazquez




                                      A WA R D   FOR EXCELLENCE
For consistently high-quality administrative support to the audit and investigative staffs in San Francisco:


                                            Joyce K. Mayeda 


For outstanding administrative support to the Deputy Assistant Inspector General for Financial, Information
Technology, and Departmentwide Programs, and the entire OIG:


                                           Patricia K. Stevens 




                                                                                                               59
           S E C R E TA R I A L   PA R T N E R I N G   F O R   E X C E L L E N C E   A W A R D S 




                         CHIEF FINANCIAL OFFICER’S ACT TEAM 

 For hard work and dedication on a Department-wide effort to improve financial management and obtain a
 clean audit opinion on the Fiscal Year 1999 DOT Consolidated Financial Statements.  The following OIG
 employees served on this team:

 John L. Meche                         Terrence J. Letko                     Anthony Etze


 Michael S. Ralph                      Leonard F. Meade                      William S. Parker


 Earl C. Hedges                        Ronald E. Brown                       Robert F. Meisenhelder


 Petra Rose                            Mary E. Smothers                      Brian A. Romberger



              H A Z A R D O U S   M AT E R I A L S   P R O G R A M   E VA L U AT I O N   T E A M

 For outstanding performance of the Department-wide evaluation of DOT’s hazardous materials programs in
 support of the DOT strategic goal for safety by working better together.  The following OIG employees served on
 this team:

                          Jacquelyn A. Goff                   Greggory S. Bond

                       Edward M. Stulginsky                     Kirk A. Gillett



                                             OIG  AWARDS



                           AWA R D   F O R   S U P E R I O R   A C H I E V E M E N T

  For outstanding leadership and significant contributions to aviation research and acquisitions, which included
 producing multiple reports and testimonies, which contributed to strengthening FAA’s modernization efforts:

                                           Matthew E. Hampton

 For outstanding leadership and dedication in managing complex information-technology audits. The work on
 the Y2K computer problem successfully assisted DOT in making a smooth transition into the 21st century: 

                                              Rebecca C. Leng


60
For dedication and outstanding performance in the criminal investigation and jury conviction of a firm involved
in the improper loading of hazardous materials that led to the fatal crash of a commercial passenger airline:

                                               John W. Long

For significant contributions to improving airline customer service and preparation of the Inspector General’s
statement for hearings before the U.S. Senate Commerce, Science and Transportation Committee:

                                               Scott K. Macey




                              E X C E P T I O N A L   C I V I L I A N   S E RV I C E

For superior leadership and significant contributions to the goals of the OIG:

                                        Ronald H. Hoogenboom

For exemplary dedication to and management of OIG’s human resources programs and initiatives toward
ensuring continuity and progression during various administration and Federal personnel changes:

                                            Patrick J. Pietrzak

For exceptional service and superior performance in conducting investigations and related activities for the OIG: 

                                           Douglas Shoemaker

For extraordinary initiative and effort in implementing the Transportation Inspector General Reporting
system in the audit organization:

                                               Cleo Simpson




                                     MANAGER OF THE YEAR

For outstanding performance in planning, directing, and managing audits of DOT’s financial state­
ments, including work that enabled the Department to obtain a clean audit opinion on financial state­
ments for the first time:

                                               Earl C. Hedges




                                                                                                                61
 For exceptional leadership and dedication to the work of the OIG, including three audits of high-visibility and
 controversial issues which produced five testimonies for Congress and the public:

                                              Stuart A. Metzger

 For significant contributions to the OIG in the development of nine high-quality products, which included a
 joint audit/investigation of the NTSB’s check-writing system, as well as audits of Maritime Administration
 programs which led to several hearings and legislation:

                                              Stephen J. Rybicki

 For outstanding leadership, dedication to duty, and superior expertise which led to 91 indictments, 85 convic­
 tions, and judicial recoveries of $31 million: 

                                             William P. Tompkins




                                     S U P E RV I S O R   O F   T H E   Y E A R

 For outstanding performance in managing a review of the FAA’s use of RTCA, Inc., as an advisory
 committee, which resulted in recommendations for significant changes in FAA and briefings to FAA’s
 Administrator, Congressional staff, and other high-level officials:

                                                Robin P. Koch

 For significant contributions to a review which was instrumental in the closure of a Transportation
 Administrative Services Center’s facility which resulted in $15 million funds put to better use, as well as a
 review of the U.S. Coast Guard’s Deepwater Project, which the OIG designated as one of the most pressing
 management issues facing DOT:

                                                Richard N. Noll

 For outstanding leadership in support of DOT’s commitment to the safety of the traveling public by leading
 the Ft. Lauderdale investigative staff in investigations which have resulted in fines and restitutions of over 
 $9 million and obtained convictions of high-profile in a high-crime area:

                                              Barbara Porraspita




62
For work on the audit of FAA’s FY 1999 financial statements, including the identification of unrecorded lia­
bility of $103 million for goods and services received by FAA’s 4,000 grantees at year-end: 

                                             Michael S. Ralph




                                    EMPLOYEES OF THE YEAR

For major contributions to the clean audit opinion on the FY 1999 DOT financial statements, which includ­
ed auditing the $20 million fund balance with Department of Treasury reconciliations, as well as four sus­
pense accounts:

                                             Sharon J. Ayers

For significant contributions to multiple audit assignments including DOT Y2K problems, the Federal
Transit Administration’s Financial Management System, and DOT Headquarters Network Security:

                                            Nathan J. Custer

For extensive support of the Office of Legal Counsel in coordinating legislation, litigation efforts, and legal
opinions in addition to serving as Legislative Committee Liaison for the President’s Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency:

                                           Brian A. Dettelbach

For extraordinary leadership of the OIG program to combat fraud in DOT programs, which has extended the
OIG’s reach throughout DOT and counterpart state agencies:

                                              LaVan Griffith

For outstanding achievements and superior performance in conducting investigations and related activities
for the OIG which have included nine indictments and ten convictions, primarily in the priority area of
motor carrier safety during FY 2000.

                                          Joseph B. McGovern




                                                                                                                  63
 For outstanding contributions in enhancing OIG reports and testimonies, and improving the writing skills of
 staff through various training sessions to OIG employees including "Getting the Words Right," which she
 developed, as well as a desktop publishing format she created:

                                             Shirley H. Murphy

 For leadership, dedication, and exceptional performance during the past year, which included serving as
 Project Manager for a complex and highly technical audit of FAA’s Oversight of Manufacturers’ Quality
 Assurance Systems:

                                               Tina B. Nysted

 For outstanding assistance to the Office of Safety Recommendations and Accomplishments with the design,
 research, and development of a safety report on the U.S. drinking driver problem, as well as her efforts on the
 Review of DOT’s Rulemaking Process: 

                                             Danielle E. Roeber

 For sustained excellence in providing timely and high-quality work during a time of particularly heavy work-
 load with high-visibility audits by ensuring the computer-assisted audit and data processing functions contin­
 ued to run smoothly and ensuring a seamless transfer of OIG data and systems from the TASC Computer
 Center to the new computing system at FAA:

                                              William E. Savage

 For outstanding performance as a team leader in executing the Congressionally-mandated Review of Airline
 Customer Service, including being instrumental in planning the project and preparing a comprehensive
 audit plan used by 10 audit teams at 17 air carrier sites nationwide: 

                                                Lisa H. Stone

 For outstanding performance on the Review of Airline Customer Service, including supervising the work of
 two teams comprised of four or more auditors/evaluators assigned to three of the airlines under review: 

                                             Sharon R. Trodden




64
      MARGUERITE CHRISTENSEN AWARD FOR EXCELLENCE IN ADMINISTRATION

For providing outstanding budget and financial management services to the OIG, ensuring the OIG’s budget
submission, and formulation and execution were consistently of the highest quality:

                                          Jacquelyn R. Weber



                                           TEAM  AWARDS



                                    FLIGHT DELAYS AUDIT TEAM

For outstanding work in the area of flight delays, cancellations, and associated causes. The following OIG
employees served on this team:

Mary Sue Hay                         Donald E. Pierro                      M. J. Mortensen


Jerry E. Seigler                     William E. Savage                     Catherine Lobue


Darren Murphy                        Petra Rose                            Randy D. Rohwer


Sandra M. DeLost                     Michael P. Dunn                       Deborah A. Kloppenburg




                      HEADQUARTERS NETWORK SECURITY AUDIT TEAM

For outstanding efforts to identify computer security weaknesses and gain corrective actions, including
identification of 270 computers accessible from the Internet, 900 computers vulnerable to internal
unauthorized access, about 100 vulnerabilities on DOT’s web servers, and a need to enhance background
checks on employees and contractors assigned to maintain DOT networks.  This effort led to testimony by the
IG at the request of Congress.  The following OIG employees served on this team:

Rebecca C. Leng                      William C. Coker                      Nathan J. Custer

Ping Z. Sun                          Cynthia F. Tims                       Cynthia L. Hinkler




                                                                                                              65
                    TRANSPORTATION RULEMAKING PROCESS AUDIT TEAM

 For the timely, comprehensive, and methodologically sound Review of DOT’s Rulemaking Process and
 recommendations to improve the process by emphasizing management accountability.  The following OIG
 employees served on this team:

 Ronald H. Hoogenboom                 Wendy M. Harris                      Madeline M. Chulumovich


 William M. Obinger                   Kari E. Beitel                       Sara J. Ancona


 Michael M. Siviy                     Danielle E. Roeber



                         TRAVEL POLICIES AND PRACTICES AUDIT TEAM

 For outstanding work on reviewing sensitive campaigning and other political activity information on politi­
 cal appointees.  Team members exercised utmost tact, diplomacy, and professionalism while continuing to
 obtain accurate information needed for the review.  The following OIG employees served on this team:

 Leroy Davis                          Thomas E. Wise, Jr.                  Stacie A. Seaborne

 Ruby B. Porch                        LaKarla M. Lindsay                   Lucia C. Hutton

                                      Robert D. Falter 


                                    SHIP SCRAPPING AUDIT TEAM

 For outstanding teamwork in disclosing the challenge facing DOT, the Administration, and Congress in dis­
 posing of MARAD’s fleet of obsolete and environmentally dangerous vessels.  The team disclosed that
 MARAD’s current procedures for disposal were not working and that the inventory of vessels awaiting dispos­
 al was continuing to grow.  The team’s report was the subject of three different Congressional hearings and
 legislative consideration.  The following OIG employees served on this team:

 Stephen J. Rybicki                   Pamela Steele-Nelson                 Janice S. Alger

 Sara B. Guthrie                      Elizabeth McNally                    Gary D. Stivers




66
                   DEEPWATER CAPABILITY REPLACEMENT PROJECT TEAM

For exceptional work on a complex and timely review of USCG’s planning process for the multi-billion dollar
Deepwater Capability Replacement Project at the request of the Coast Guard Commandant.  This review
identified significant budget implications for future years, including an unprecedented increase in USCG’s
acquisition budget for the next 20 years.  The following OIG employees served on this team:

Ronald H. Hoogenboom                  Stephen A. Bitter                     Ruth A. Blevins

Nathaniel K. Adusei                   Sam N. Bellino                        Celestine J. Curry

Richard N. Noll                       Katya M. Mischenko


                    SECURITY CONTRACTOR FRAUD INVESTIGATION TEAM

For outstanding team effort and results in conducting an investigation of a passenger security screening serv­
ice, which disclosed approximately 100 examples of criminal violations for falsification of employee background
checks which are required by FAA regulations.  The following OIG employees served on this team:

                           Michael J. Waters                Michael J. Purcell


                            CHICAGO TRACON INVESTIGATION TEAM

For exemplary service in conducting a priority, high-sensitivity investigation of an air-traffic control slow-
down at Chicago’s O’Hare Airport.  This investigation led to significant proposed disciplinary and adminis­
trative action against 15 FAA personnel.  The following OIG employees served on this team:

Richard C. Beitel, Jr.                James L. Muhlenkamp                   Jacquie M. Wente




                                                                                                                 67
 ☎      Contacts



 INSPECTOR GENERAL 


 Kenneth M. Mead  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1959


 ACTING DEPUTY INSPECTOR GENERAL 

 Todd J. Zinser  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-6767


 A S S I S TA N T   I N S P E C TO R   G E N E R A L   F O R   AU D I T I N G

 Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1992


 A C T I N G   A S S I S TA N T   I N S P E C TO R   G E N E R A L   F O R   I N V E S T I G AT I O N S

 David H. Gamble  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1967


 SENIOR COUNSEL

 Roger P. Williams  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-8751


 S E N I O R   C O U N S E L   F O R   L E G I S L AT I V E   A N D   E X T E R N A L   A F FA I R S

 Brian A. Dettelbach  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-6682


 P U B L I C   A F FA I R S   O F F I C E R

 David Barnes  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-6312


 D E P U T Y   A S S I S TA N T   I N S P E C T O R   G E N E R A L   F O R   AV I AT I O N

 David  A. Dobbs  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0500


 D E P U T Y   A S S I S TA N T   I N S P E C TO R   G E N E R A L   F O R   F I N A N C I A L /
 I N F O R M AT I O N   T E C H N O L O G Y / D E PA R T M E N T W I D E   P R O G R A M S

 John L. Meche  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-1496


 A C T I N G   D E P U T Y   A S S I S TA N T   I N S P E C TO R   G E N E R A L  
 F O R   N AT I O N A L   T R A N S P O RTAT I O N   I N F R A S T R U C T U R E

 Thomas J. Howard  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0687


 D E P U T Y   A S S I S TA N T   I N S P E C T O R   G E N E R A L   F O R   M A R I T I M E   A N D   H I G H W AY   S A F E T Y

 Thomas J. Howard  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-5630


 D E P U T Y   A S S I S TA N T   I N S P E C TO R   G E N E R A L   F O R   C O M P E T I T I O N,
 ECONOMIC, RAIL, AND  SPECIAL  PROGRAMS

 Mark R. Dayton  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-9970




68
